<html>
<title> - SPENDING PRIORITIES AND MISSIONS OF THE U.S. GEOLOGICAL SURVEY AND THE PRESIDENT'S FY 2012 BUDGET PROPOSAL</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
SPENDING PRIORITIES AND MISSIONS OF THE U.S. GEOLOGICAL SURVEY AND THE 
                PRESIDENT'S FY 2012   BUDGET   PROPOSAL

=======================================================================

                           OVERSIGHT HEARING

                               before the

                       SUBCOMMITTEE ON ENERGY AND
                           MINERAL RESOURCES

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                        Wednesday, March 9, 2011

                               __________

                            Serial No. 112-8

                               __________

       Printed for the use of the Committee on Natural Resources



         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
      


                  U.S. GOVERNMENT PRINTING OFFICE
65-119                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="85e2f5eac5e6f0f6f1ede0e9f5abe6eae8ab">[email&#160;protected]</a>  

                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
             EDWARD J. MARKEY, MA, Ranking Democrat Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      John P. Sarbanes, MD
Scott R. Tipton, CO                  Betty Sutton, OH
Paul A. Gosar, AZ                    Niki Tsongas, MA
Raul R. Labrador, ID                 Pedro R. Pierluisi, PR
Kristi L. Noem, SD                   John Garamendi, CA
Steve Southerland II, FL             Colleen W. Hanabusa, HI
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Charles J. ``Chuck'' Fleischmann, 
    TN
Jon Runyan, NJ
Bill Johnson, OH

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
                Jeffrey Duncan, Democrat Staff Director
                   Rick Healy, Democrat Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES

                       DOUG LAMBORN, CO, Chairman
               RUSH D. HOLT, NJ, Ranking Democrat Member

Louie Gohmert, TX                    Peter A. DeFazio, OR
Paul C. Broun, GA                    Eni F.H. Faleomavaega, AS
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Glenn Thompson, PA                   Dan Boren, OK
Dan Benishek, MI                     Gregorio Kilili Camacho Sablan, 
David Rivera, FL                         CNMI
Jeff Duncan, SC                      Martin Heinrich, NM
Paul A. Gosar, AZ                    John P. Sarbanes, MD
Bill Flores, TX                      Betty Sutton, OH
Jeffrey M. Landry, LA                Vacancy
Charles J. ``Chuck'' Fleischmann,    Edward J. Markey, MA, ex officio
    TN
Bill Johnson, OH
Doc Hastings, WA, ex officio


                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, March 9, 2011.........................     1

Statement of Members:
    Holt, Hon. Rush D., a Representative in Congress from the 
      State of New Jersey........................................     4
        Prepared statement of....................................     5
    Lamborn, Hon. Doug, a Representative in Congress from the 
      State of Colorado..........................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Aster, Dr. Richard C., President, Seismological Society of 
      America, and Professor of Geophysics, New Mexico Institute 
      of Mining and Technology...................................    20
        Prepared statement of....................................    22
    McNutt, Hon. Marcia, Director, U.S. Geological Survey, U.S. 
      Department of the Interior.................................     6
        Prepared statement of....................................     8
    Palatiello, John M., Executive Director, MAPPS...............    25
        Prepared statement of....................................    26
    Price, Dr. Jonathan G., State Geologist and Director, Nevada 
      Bureau of Mines and Geology, Association of American State 
      Geologists.................................................    29
        Prepared statement of....................................    30
    Schiffries, Dr. Craig M., Director for Geoscience Policy, 
      Geological Society of America..............................    36
        Prepared statement of....................................    38
                                     



OVERSIGHT HEARING TO ``EXAMINE THE SPENDING PRIORITIES AND THE MISSIONS 
   OF THE U.S. GEOLOGICAL SURVEY AND THE PRESIDENT'S FY 2012 BUDGET 
                              PROPOSAL.''

                              ----------                              


                        Wednesday, March 9, 2011

                     U.S. House of Representatives

              Subcommittee on Energy and Mineral Resources

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 2:43 p.m. in 
Room 1324, Longworth House Office Building, Hon. Doug Lamborn 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Lamborn, Fleming, Coffman, Rivera, 
Gosar, Landry, Fleischmann, Holt, and Sarbanes.

 STATEMENT OF HON. DOUG LAMBORN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF COLORADO

    Mr. Lamborn. The Subcommittee will come to order. The 
Chairman notes the presence of a quorum, which under Committee 
Rule 3[e] is two Members. The Subcommittee on Energy and 
Mineral Resources is meeting today to hear testimony on the 
mission, priorities, and proposed Fiscal Year 2012 budget for 
the United States Geological Survey.
    Under Committee Rule 4[f], opening statements are limited 
to the Chairman and Ranking Member of the Subcommittee so that 
we can hear from our witnesses more quickly. However, I ask 
unanimous consent to include any other Member's opening 
statements in the hearing record if submitted to the clerk by 
close of business today. Hearing no objection, so ordered.
    We are here today to consider the President's proposed 
Fiscal Year 2012 budget and missions for the U.S. Geological 
Survey. The Survey was founded on March 3rd, 1879, for the 
purpose of classifying public lands and to examine geologic 
structures, mineral resources, and products within and outside 
the national domain.
    Today, the USGS mission reads a little bit like the Book of 
Genesis, although not quite in the order of the earth's 
creation. It includes the land and waters. It gives us an 
understanding of the minerals and energy resources of our 
world, helps to track the subsurface movements of the earth in 
order to mitigate the adverse impacts of earthquakes, volcanic 
eruptions, tsunamis, and other geologic hazards.
    During the nineties, that mission was expanded even further 
to include the National Biological Service to study the plants 
that cover the earth and the birds and animals that roam the 
earth. Over the last few years, the mission of USGS has 
expanded further to include work on climate change, and the 
budget before us today continues this expansion by finalizing a 
move to include more responsibility for operations in space and 
ecosystem restoration here on earth.
    Considering the USGS now has the responsibility for the 
entire world, the rocks, waters, animals, air and space, I must 
say, Madame Director, it sounds like an incredibly daunting 
job. It is also, however, concerning, if not troubling, for 
those of us who care about the traditional missions of the 
Survey to see its missions and budgetary requirements 
redirected to programs other than the important economic 
activities built on the USGS Organic Act and the various 
mineral policy laws that Congress has passed over the years.
    We will be reminded today that the important mission of the 
Survey to combat and address geologic hazards is slated for a 
reduction in funding. As we were reminded just over a year ago 
in Haiti, earthquakes can and do kill hundreds of thousands of 
people--in the case of Haiti, a magnitude 7 earthquake that 
killed over 230,000 people. We were also reminded of the 
importance of mitigation as an equally devastating magnitude 8 
earthquake in Chile recently killed approximately 500 people.
    Now, many folks are deeply concerned that the 
Administration's proposal to reduce funding for the geologic 
hazards program will hinder the nation's ability to prepare and 
mitigate for potential natural disasters. More troubling is the 
proposed budget that includes significant spending increases 
for well-intended but questionable scientific endeavors with no 
measurable benefit to society.
    In addition, as the Survey is stretched thinner, the 
traditional core responsibilities, such as mapping, geologic 
mapping, and ensuring adequate, stable, and economical 
materials and supplies essential to national security, economic 
well-being, and industrial production--that is a quote from the 
original Act, I believe--are displaced with fashionable 
programs with limited, if any, measurable benefit to society.
    As we see the Survey gaining greater responsibility for the 
Landsat satellites that help us understand our earth, we also 
see the Survey failing to help keep duplication of mapping 
efforts from wasting our precious tax dollars. This is an area 
I am particularly concerned about. In 2009, this Subcommittee 
heard testimony identifying billions of dollars wasted in the 
Stimulus Bill on duplicative mapping efforts.
    I expect today we will hear that such duplication and waste 
continue in our Federal agencies. It is the mission of this 
Subcommittee to find opportunities to root out waste, 
duplication, and to streamline government. You can be assured 
this committee will be examining this issue in more depth in 
the future.
    Finally, I am wondering where the geology is at with the 
United States Geological Survey. It has been completely 
swallowed up by all the, quote, ``new missions and 
reorganization,'' unquote, at USGS. If I were to guess the name 
of your agency by looking at your budget, it would be called 
the United States Ecosystem Restoration and Climate Monitoring 
Service, not the United States Geological Survey. It is time 
that the Survey get back to its roots, providing the 
foundational knowledge of the nation's geology, energy, and 
mineral resources, geologic structures and hazards, and a 
functional map base for the United States.
    This is knowledge that allows States, local governments, 
tribal nations, territories, and the private sector to make 
informed decisions regarding economic development, private 
sector investment, conservation, and job creation. Baseline 
geologic information allows the United States to make informed 
decisions on how best to reduce our dependence on foreign 
sources of fuel and nonfuel mineral resources that will improve 
our economic and national security.
    I look forward to hearing from our witnesses today, and I 
would now like to recognize for five minutes the gentleman from 
New Jersey, our Ranking Member, for his opening statement.
    [The prepared statement of Chairman Lamborn follows:]

          Statement of The Honorable Doug Lamborn, Chairman, 
              Subcommittee on Energy and Mineral Resources

    We are here today to consider the President's proposed fiscal year 
2012 budget and missions for the U.S. Geological Survey.
    The Survey was founded on March 3, 1879 for the purpose of 
classifying public lands and to examine geologic structures, mineral 
resources, and products within and outside the national domain.
    Today the USGS mission reads a little like The Book of Genesis but 
not quite in the order of the earth's creation. It includes the land 
and waters; it gives us an understanding of the minerals and energy 
resources of our world. Helps us track the subsurface movements of the 
earth in order to mitigate the adverse impacts of earth quakes, 
volcanic eruptions, tsunamis and other geologic hazards.
    During the 90's that mission was further expanded to include the 
national biological service to study the plants that cover the earth 
and the birds and animals that roam the earth. Over the last few years, 
the mission of USGS has expanded further to include work on climate 
change and the budget before us today continues this expansion by 
finalizing a move to include more responsibility for operations in 
space and ecosystem restoration here on earth.
    Considering the USGS now has responsibility for the entire world: 
the rocks, waters, animals, air, and space I must say madam Director, 
it sounds like an incredibly daunting job.
    It is also deeply troubling for those of us who care about the 
traditional missions of the Survey to see its missions and budgetary 
requirements redirected to programs that other than the important 
economic activities built on the USGS Organic act and the various 
mineral policy laws that Congress has passed over the years.
    We will be reminded today that the important mission of the Survey 
to combat and address geologic hazards is slated for a reduction in 
funding. As we were reminded just over a year ago in Haiti, earthquakes 
can and do kill hundreds of thousands of people, in the case of Haiti a 
magnitude 7 earthquake killed over 230,000people. We were also reminded 
of the importance of mitigation as an equally devastating magnitude 8 
earthquake in Chile killed approximately 500 people. Many folks are 
deeply concerned that the Administration's proposal to reduce funding 
for the geologic hazards program will hinder the Nation's ability to 
prepare and mitigate for potential natural disasters. More troubling is 
the proposed budget includes significant spending increases for well-
intended but questionable scientific endeavors with no measurable 
benefit to society.
    In addition, as the Survey is stretched thinner, the traditional 
core responsibilities such as mapping, geologic mapping and ensuring 
``adequate, stable, and economical materials supplies essential to 
national security, economic well-being, and industrial production;'' 
are displaced with fashionable programs with limited if any measurable 
benefit to society.
    As we see the Survey gaining greater responsibility for the Landsat 
satellites that help us understand our earth, we also see the Survey 
failing to help keep duplication of mapping efforts from wasting our 
precious tax dollars. This is an area that I am particularly concerned 
about; in 2009 this Subcommittee heard testimony identifying billions 
of dollars wasted in the stimulus bill on duplicative mapping efforts. 
I expect today we will hear that such duplication and waste continue in 
our federal agencies. It is the mission of this Subcommittee to find 
opportunities to root out waste, duplication and streamline government. 
You can be assured this committee will be examining this issue in more 
depth in the future.
    Finally, I'm wondering where the ``geology'' is at the United 
States Geological Survey. It's been completely swallowed up by all the 
`new missions and reorganization' at USGS. If I was to guess the name 
of your agency by looking at your budget it would be called the United 
States Ecosystem Restoration and Climate Monitoring Service not the 
United States Geological Survey.
    It's time that the Survey get back to its roots providing the 
foundational knowledge of the nation's geology, energy and mineral 
resources, geologic structure and hazards, and a functional map base 
for the United States; knowledge that allows states, local governments, 
tribal nations, territories and the private sector to make informed 
decisions regarding economic development, private sector investment, 
conservation and job creation.
    Baseline geologic information allows the United States to make 
informed decisions on how to best reduce our dependence on foreign 
sources of fuel and non-fuel mineral resources improving our economic 
and national security.
    I look forward to hearing from our witnesses today.
                                 ______
                                 

STATEMENT OF HON. RUSH HOLT, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF NEW JERSEY

    Mr. Holt. Thank you, Mr. Chairman. And since this is the 
first hearing of this Subcommittee in this Congress, I would 
like to welcome our colleagues to the Subcommittee and say I 
look forward to working with you, Mr. Chairman. Thank you.
    The USGS dates back to the fine work of such American 
heroes as John Wesley Powell and many other experts. And I 
would have to say, too few Americans know how much they depend 
on the work of the USGS, work that benefits all Americans in so 
many areas, including traditional geology and far beyond.
    I have some questions on specific line items in the budget 
request. I would like to focus just quickly on a couple of 
items, though, that I hope we will be able to discuss. First, 
with the increasing use of hydraulic fracturing, there has been 
an increase in public concern about the effects that this 
technique has on our environment. And last week, notably, The 
New York Times published the results of a rather extensive 
investigation that suggests that millions of gallons of 
drilling wastewater that are contaminated with radioactive 
materials have been dumped into rivers and other waterways. Oh, 
and The Times also reported, interestingly, that much of the 
sludge has been spread on roads to control ice in the winter 
and dust in the summer.
    Other news reports have raised concerns about this same 
drilling wastewater when injected deep underground. We have had 
reports recently of earthquakes in Arkansas and in Texas and 
other areas, and so questions remain about the exact effects of 
hydraulic fracturing. It is an issue of great importance to 
residents of my state, New Jersey, because so many of us live 
in the Delaware River basin and depend on that water.
    USGS has an important role to play in providing robust data 
and scientific understanding that is needed to ensure that any 
hydrofracking is done in an environmentally responsible manner.
    Rare earth elements are another area that I think deserve 
our attention, minerals that are useful in military and 
civilian applications of all sorts. Our scientists at USGS, I 
think, have an important role in helping us understand the 
nature and quantity of available rare earth resources, and I 
look forward to hearing more about that.
    I also wanted to express concern about something that is of 
interest to many of the States and their geological programs, 
and that is the elimination of the National Geological and 
Geophysical Data Preservation Program, as well as proposed cuts 
to the Cooperative Geologic Mapping Program.
    As Dr. Phillips will testify today, these programs are very 
important to many of the States, and I know of particular 
importance to New Jersey. My State has one of the oldest 
geological agencies in the nation, predating the USGS. In fact, 
it goes back to 1835. And I am very proud of our State 
Geologist, Karl Muessig. Geology, I should point out, is so 
important in New Jersey that although we don't have a State 
song, we do have a State soil. And for you trivia afficionados, 
it is Downer soil.
    So I look forward to discussing these cuts and how they 
would affect the States if they were to go forward. And 
finally, as we approach the one-year anniversary of the BP oil 
spill, we should remind ourselves that Congress still has not 
yet enacted the reforms to improve the safety of offshore 
drilling. And the independent Commission on the BP Deepwater 
Horizon Oil Spill recommended that Congress establish permanent 
technical expertise on, among other things, flow rate. And the 
legislation I have introduced with Ranking Member Markey to 
implement the Commission's reforms would create a permanent 
flow rate technical group, headed by USGS. And this 
Subcommittee, I think, should take action on that and related 
recommendations.
    So I thank you, Mr. Chairman, and I look forward to the 
testimony of our witnesses.
    [The prepared statement of Mr. Holt follows:]

       Statement of The Honorable Rush D. Holt, Ranking Member, 
              Subcommittee on Energy and Mineral Resources

    As this is the first hearing of the Energy and Mineral Resources 
Subcommittee in the 112th Congress let me begin by welcoming my 
colleagues to the Subcommittee and saying that I look forward to 
working with you, Mr. Chairman.
    Few Americans know of the work of the USGS--dating back to the fine 
work of such American heroes as John Wesley Powell and many other 
experts--that all Americans depend on and benefit from in so many areas 
including traditional geology and beyond. While I have questions on 
specific line items in the Administration's budget request for the U.S. 
Geological Survey for FY2012 I want to begin by focusing on a few 
general issues.
    First, with increasing use of hydraulic fracturing there has also 
been an increase in public concern about the effects this technique has 
on our environment. Last week the New York Times released results of an 
investigation that suggests that millions of gallons of drilling 
wastewater contaminated with radioactive radium had been dumped into 
rivers and other U.S. waterways that feed our drinking water supply. 
When this wastewater is treated by sewage plants, what is left is a 
highly concentrated toxic and radioactive sludge, which according to 
the Times, is spread on roads to control ice in the winter and dust in 
the summer. Other news reports have raised concerns that this same 
drilling wastewater, when injected deep underground, may be responsible 
for triggering earthquakes in Arkansas, Texas and other areas where 
these drilling operations are abundant. Questions remain as to the 
exact effects that hydraulic fracturing is having on our environment. 
This is an issue of utmost importance to my New Jersey constituents who 
live in the Delaware River Basin, where hydro fracking regulations are 
currently being considered. USGS has an important role to play in 
providing the robust data and scientific understanding needed to ensure 
that hydraulic fracturing is either done in an environmentally 
responsible manner and if that is not possible that it not be done at 
all.
    Rare earth elements are another area I feel deserves close 
attention. These minerals are indispensable to a wide range of 
military, electronic, and industrial applications, as well as a variety 
of clean energy technologies, such as wind turbines, hybrid vehicles, 
solar panels and energy efficient light bulbs. The United States was 
once self-reliant in producing rare earth elements domestically, 
however, we have become completely reliant on imports over the past 15 
years. Today, 97 percent of the world's rare earth element supply comes 
from China, a scenario unfavorable to American economic and national 
security interests. Our scientists at USGS have an important role in 
helping us more fully understand the nature and quantity of the 
available rare earth resource base and I look forward to hearing more 
about that strategy today.
    I also have to express my concern about the proposed elimination of 
the National Geological and Geophysical Data Preservation Program and 
proposed cuts to the National Cooperative Geologic Mapping Program. As 
Dr. Phillips will testify today these programs are extremely important 
to our states, and, I know, of importance to New Jersey. My state runs 
one of the oldest Geological Agencies in the nation. The New Jersey 
Department of Environmental protection created the NJ Geological Survey 
in 1835, and I am proud to have our state Geologist Karl Muessig as a 
constituent. Geology is so important to New Jersey that while we do not 
have a state song we do have a state soil, downer soil. I look forward 
to discussing the reasons that these cuts have been proposed and what 
can be done to ensure that states get the federal support they need to 
continue these programs.
    Finally, as we approach the one-year anniversary of the BP oil 
spill, it is a reminder that the Congress still has not yet enacted 
reforms to improve the safety of offshore drilling. The independent 
commission on the BP Deepwater Horizon oil spill recommended that 
Congress establish permanent, technical expertise on flow rate. The 
legislation that I have introduced with Ranking Member Markey to 
implement the commission's reforms would create a permanent flow rate 
technical group headed up by USGS and this Subcommittee must take 
action to implement these recommendations.
    Thank you and I look forward to the testimony from our witnesses.
                                 ______
                                 
    Mr. Lamborn. Thank you. And now we will hear from our 
witnesses. It is my honor to welcome USGS Director, Dr. Marcia 
McNutt. Like all of our witnesses, your written testimony will 
appear in full in the hearing record, so I ask that you keep 
your oral comments to five minutes, as outlined in the 
invitation letter. Our microphones are not automatic, so please 
press the button when you are ready to begin.
    I also want to explain the timing lights. When you begin to 
speak, the clerk will start the timer, and a green light will 
go on. After four minutes, a yellow light will come on. And 
then at that time, you should begin to conclude. And at five 
minutes, the red light comes on.
    So we would love to hear from you. Thank you for being here 
today.

  STATEMENT OF HON. MARCIA McNUTT, DIRECTOR, U.S. GEOLOGICAL 
            SURVEY, U.S. DEPARTMENT OF THE INTERIOR

    Dr. McNutt. Well, good afternoon, Mr. Chairman and Members 
of the Subcommittee. Thank you for the opportunity to appear 
before you today and to discuss the Administration's 2012 
budget request for the USGS. I will be pleased to answer your 
questions and to hopefully clear up any misperceptions about 
our request.
    The 2012 budget does formally realign the USGS budget with 
our new mission areas. And although it may appear to you that 
we are diverging from our roots, it really is in order to 
better meet the needs of the changes in our nation and what the 
American public really needs to see from the USGS in terms of 
our natural resources: water, energy, minerals, natural 
hazards. And those are exactly our new mission areas.
    So while much has changed at the USGS, really things have 
not. Natural resource managers, natural hazard responders, 
industry, and the public continue to rely on our science, our 
data, and our information. So here are some examples.
    The USGS recently released the first detailed inventory of 
rare earth elements, describing known deposits for the entire 
nation. The assessment will be important both to policy makers, 
but particularly to industry. It reinforces the value of our 
efforts to maintain accurate, independent information on our 
nation's resources.
    Estimated economic loss and casualty information are now 
being included in U.S. earthquake alerts following significant 
earthquakes around the world. These earthquake alerts are 
wildly used by emergency responders, are FEMA's favorite 
product right now, and aid officials in the public to 
understand the scope of potential disasters and to develop the 
appropriate level of first response.
    The USGS long-term monitoring and robust ecosystem studies 
continue to pay dividends as our nation seeks to discover 
whether investments in ecosystem restoration are working. For 
example, a recent study determined that the Potomac River in 
Washington is showing multiple benefits from restoration 
efforts.
    The 2012 budget request for the USGS is 1.1 billion, about 
one-half of 1 percent more than we received two years ago. The 
budget request includes establishment of a separate account for 
Landsat missions, along with an increase of 48 million to begin 
developing an operational Landsat program, starting with 
Landsats 9 and 10.
    Landsat has become vital to the nation's agricultural, 
water management, disaster response, and scientific 
communities. Establishment of this account and the increase in 
funding will provide the stable budgetary foundation needed for 
a continuous capability.
    The budget request also proposes an additional 12 million 
for the restoration of some of the nation's most iconic 
ecosystems, including Chesapeake Bay, Columbia River, Upper 
Mississippi, Puget Sound, and the Great Lakes. The USGS is 
working in collaboration with other Interior bureaus, the 
Federal agencies, on these restoration efforts.
    Funding to complete the work of Interior climate science 
centers is also included at 11 million above the 2010 enacted 
level. The centers focus on understanding landscape stressors 
related to climate change and designing adaptation strategies 
at a regional level. In 2010, centers were established in the 
Northwest, Southeast, and Alaska regions, in collaboration with 
universities in your home states. The remaining centers will be 
established in the Northeast, South Central, North Central, 
Southwest, and the Pacific Island regions.
    To support Interior's substantial coastal and ocean 
resource management responsibilities, the budget request 
includes an additional 4.5 million for coastal and marine 
spatial planning. The USGS will continue leading the 
development of a national information management system for 
coastal, ocean, and Great Lakes resources.
    Our budget also makes vital investments in resource and 
development in ecosystem restoration, while proposing 
reductions within a number of programs, and also making 
management efficiencies.
    The U.S. 2010 budget reflects our ability to address a 
broad array of natural resource and natural science issues 
facing the nation. It also reflects tough choices and difficult 
decisions. We aim to ensure our multi-disciplinary science 
expertise is applied effectively, efficiently, and 
strategically to meet the nation's most pressing needs today.
    To conclude my statement, Mr. Chairman, I would be happy to 
answer your questions and that of any other Members. I 
appreciate this opportunity to testify before you.
    [The prepared statement of Dr. McNutt follows:]

     Statement of Marcia McNutt, Director, U.S. Geological Survey, 
                    U.S. Department of the Interior

    Good morning, Mr. Chairman and Members of the Subcommittee. Thank 
you for the opportunity to appear before you today to discuss the 
Administration's 2012 budget request for the U.S. Geological Survey 
(USGS).
    Much about the USGS has changed in the year since we last sat 
together in this room to discuss funding for the important work the 
USGS does for the Nation. The USGS has realigned its management 
structure, moving from an organizational structure of single and 
separated disciplines to form interdisciplinary mission areas as 
outlined in the USGS Science Strategy: ``Facing Tomorrow's Challenges--
U.S. Geological Survey Science in the Decade 2007-2017'' (U.S. 
Geological Survey, 2007). I appreciate the Subcommittee's support for 
the realignment. The 2012 USGS budget request formally aligns the USGS 
budget structure with the new mission area management structure. We are 
already seeing evidence that bringing expertise from several Earth 
science disciplines together through these mission areas to address 
issues of concern allows the USGS to better respond to customer and 
partner needs to provide the best value to the taxpayers.
    While much has changed at USGS, some things have not. Natural 
resources managers, natural hazards responders, industry, and the 
public continue to rely on the important science, data, and information 
the USGS produces as part of its core mission to provide the scientific 
basis that contributes to the wise management of the Nation's natural 
resources and that promotes the health, safety, and well-being of 
people. Given the rapid pace required for management and policy 
decisions in comparison to the more deliberative time scale for 
authoritative, peer reviewed science, the USGS must always anticipate 
the Nation's needs and maintain a broad portfolio of research and 
researchers across the country. The last year has provided numerous 
examples of how USGS science is providing relevant and timely 
scientific results to address some of the most pressing natural 
resources challenges of our time.
    In the last year, USGS science has been at the forefront in 
responding to many natural resource challenges. The USGS recently 
released the first ever detailed inventory of rare earth elements 
describing known deposits for the entire Nation. These elements are 
essential components for many current and emerging alternative energy 
technologies, such as electric vehicles, photo-voltaic cells, energy-
efficient lighting, and wind power. The assessment will be very 
important both to policy-makers and to industry, and it reinforces the 
value of our efforts to maintain accurate, independent information on 
our Nation's natural resources as only the USGS can do.
    USGS hazards science made great strides as well. In the aftermath 
of the January 2010 Haiti earthquake, USGS scientists used geological 
field observations and interpretations of satellite imagery, aerial 
photography, and light detection and ranging (LiDAR) to discover the 
main strand of the Enriquillo-Plantain Garden Fault thought to be 
responsible for the January quake had not ruptured and the hazard 
associated with the fault still remains high. Information of this 
nature is critical as Haiti continues its struggle to recover from the 
impacts of the devastating earthquake and make important decisions on 
rebuilding its capital city.
    The USGS continues its efforts to put science, data, and 
information into the hands of those who need it for decision making. In 
recent months, the USGS announced that estimated economic loss and 
casualty information will now be included in USGS earthquake alerts 
following significant earthquakes around the world. These earthquake 
alerts are widely recognized and used by emergency responders, 
government and aid officials, and the public to understand the scope of 
the potential disaster and to develop the best response. The USGS 
automated system, PAGER (Prompt Assessment of Global Earthquakes for 
Response), within minutes provides preliminary estimates of earthquake 
impacts, including the range of possible fatalities and economic 
losses, by assessing the shaking distribution, the number of people and 
settlements exposed to severe shaking and other factors. This 
information is critical in determining the human and economic toll so 
that emergency responders can act promptly and effectively.
    The USGS recently made available instant, customized updates about 
water conditions through its ``WaterAlert'' system. This system allows 
users to receive updates about river flows, groundwater levels, water 
temperatures, rainfall and water quality at more than 9,500 sites where 
the USGS collects real-time water information. This information is 
crucial for managing water resources, including during floods, droughts 
and chemical spills. Real-time water data are essential to those making 
daily decisions about water-related activities, whether for resource 
management, business operations, flood response or recreation. 
WaterAlert furthers USGS efforts to make data immediately available and 
relevant to every user.
    USGS long-term monitoring and robust ecosystem studies continue to 
pay dividends as our Nation seeks to discover whether investments in 
ecosystem restoration are working. One example is a recent study that 
determined the Potomac River in Washington, D.C., is showing multiple 
benefits from restoration efforts. According to direct measurements 
taken during the 18-year field study, reduced nutrients and improved 
water clarity have increased the abundance and diversity of submerged 
aquatic vegetation in the Potomac. The public deserves to know whether 
its investments are having tangible results. This study and others like 
it provide that information.
    It is the hard-working scientific and professional staff at the 
USGS, powered by this Subcommittee's long-term investment in and 
commitment to science, that makes these advancements possible. The 
success of USGS efforts, such as those highlighted here, makes it all 
the more challenging to make tough decisions regarding the allocation 
of scarce fiscal resources.
    To address the President's priority on fiscal responsibility, the 
USGS 2012 budget makes vital investments in research and development 
and ecosystem restoration, while also proposing reductions within 
programs such as regional assessments of groundwater quantity and 
quality; toxic substances research; mineral resource assessments; 
research and grants that address the Nation's resilience to natural 
hazards; the Water Resources Research Act program; the National 
Biological Information Infrastructure; the National Water Quality 
Assessment Program; the National Geological and Geophysical Data 
Preservation program; the National Cooperative Geological Mapping 
program; research to establish the limits of the extended Outer 
Continental Shelf; and the climate effects network. These changes 
reflect tough choices. We are repositioning core responsibilities to 
better address complex multidisciplinary issues within a reduced 
funding level.
    The 2012 budget request for the USGS is $1.1 billion, an increase 
of $6.1 million from the 2010 enacted level. In 2012, the USGS is 
proposing to establish a new appropriations account, National Land 
Imaging (NLI), which comprises a base transfer from the Surveys, 
Investigations and Research (SIR) account of $53.5 million coupled with 
an increase of $48.0 million to begin work on Landsats 9 and 10. 
Excluding the NLI account, the SIR account is $53.6 million below the 
2010 enacted level. Decreases are proposed in scientific programs as 
well as for Interior-wide management efficiencies and administrative 
savings in travel, contracts, supplies, and information technology.
Major Changes
    The USGS 2012 budget request includes establishment of a separate 
account for Landsat missions along with an increase of $48.0 million to 
begin developing an operational Landsat program, starting with Landsats 
9 and 10. Landsat furthers Interior's important role in land remote 
sensing under the President's National Space Policy and provides 
invaluable data for land use and climate change research. The new 
account will include funding for current satellites (Landsats 5 and 7), 
the Landsat Data Continuity Mission (Landsat 8), which is scheduled to 
launch in December 2012, and the development of Landsats 9 and 10, 
through a continuous Landsat program that will ensure data continuity 
in the future. Landsat has become vital to the Nation's agricultural, 
water management, disaster response, and scientific communities. 
Establishment of this account and the increase in funding will provide 
the stable budgetary foundation needed for a continuous capability. A 
permanent budgetary and managerial structure will ensure the continued 
collection and maintenance of the important data the Landsat satellite 
series provides.
    The budget request also proposes an additional $12.0 million for 
the restoration of some of the Nation's most iconic ecosystems. These 
efforts support America's Great Outdoors, the President's signature 
conservation initiative to protect and restore the health, heritage, 
natural resources and social and economic value of some of the Nation's 
most significant ecosystems. The USGS plays a vital role in the 
development and implementation of the America's Great Outdoors 
initiative, working in collaboration with other Interior bureaus and 
Federal agencies. Particular focus is given to important and iconic 
ecosystems, with targeted increases for Chesapeake Bay (+$4.6 million), 
Columbia River (+$1.4 million), Upper Mississippi River (+$1.0 million) 
and Puget Sound (+$1.5 million). The budget includes $3.5 million for 
the Great Lakes, including support for USGS' role in the Asian Carp 
Control Framework, to detect and understand this invasive fish and 
develop chemical control tools.
    The 2012 budget provides $10.9 million for USGS activities in the 
WaterSMART initiative, $9.0 million above the 2010 Enacted/2011 CR 
level, to implement the WaterSMART Availability and Use Assessment. The 
USGS will conduct comprehensive water supply and demand inventories to 
provide the baseline information needed by public and private water 
managers to work toward sustainable water supplies. This effort will 
include estimating freshwater resources, how those supplies are 
distributed, and how they are changing over time; evaluating factors 
affecting water availability including energy development, changes in 
agricultural practices, increasing population, and competing priorities 
for limited water resources; and assessing water use and distribution 
for human, environmental, and wildlife needs.
    Funding to complete the network of Interior Climate Science 
Centers, as called for in Secretarial Order 3289, is also included at 
$11.0 million above the 2010 enacted level. The planned network of 
eight Interior Climate Science Centers will provide fundamental 
research and tools to the network of landscape conservation 
cooperatives and to natural and cultural resource managers. The Centers 
focus on understanding landscape stressors related to climate change 
and designing adaptation strategies at a regional level. In 2010, CSCs 
were established in the Northwest, Southeast and Alaska Regions. At the 
proposed funding level, the remaining CSCs will be established in the 
Northeast, South Central, North Central, Southwest and Pacific Islands 
regions.
    To continue investment in science to support Interior's substantial 
coastal and ocean resource management responsibilities and its critical 
role in implementing the Administration's National Ocean Policy, the 
budget request includes an additional $4.5 million for coastal and 
marine spatial planning. The USGS will continue leading the development 
of a national information management system for coastal, ocean and 
Great Lakes resources. This involves conducting a number of efforts 
important in managing resources with other Federal, State, tribal, and 
regional partners. Efforts include constructing a prototype Coastal and 
Marine Spatial Planning Internet portal for the Gulf of Mexico; 
developing modeling tools to forecast coastal vulnerability to 
projected sea level rise and predicted coastal storms; and establishing 
data standards and undertaking gap analysis to target future priority 
data collection activities.
Budget Summary by Budget Activity
    The 2012 budget includes a total of $166.4 million for the 
Ecosystems mission area. The request includes increases to the 
Terrestrial, Freshwater, and Marine Environments and Invasive species 
programs to support the President's signature conservation initiative, 
America's Great Outdoors.
    The Climate and Land Use Change budget activity request totals 
$106.4 million and includes new funding for completion of the Interior 
Climate Science Centers and funding for new efforts associated with 
carbon sequestration in the California Bay-Delta.
    The 2012 total request for Energy, Minerals, and Environmental 
Health is $88.5 million, which reflects a $13.0 million reduction from 
the 2010 enacted level.
    The total requested funding level for Natural Hazards in 2012 is 
$133.9 million or $5.1 million below the 2010 enacted level.
    In 2012, the request level for Water Resources totals $199.6 
million. This represents a reduction of $21.6 million from the 2010 
enacted level.
    The 2012 total budget request for Core Science Systems is $105.9 
million, a reduction of $19.0 million below the 2010 enacted level.
    The total funding level for Administration and Enterprise 
Information is requested at $116.5 million and reflects a net program 
increase of $1.4 million.
    The 2012 total budget request for Facilities is $100.8 million; a 
reduction of $5.6 million below the 2010 enacted level.
Conclusion
    The USGS 2012 budget request addresses issues long important to the 
Administration and Interior, and aligns the USGS budget structure with 
its management structure. This budget reflects our ability to address a 
broad array of natural-resource and natural-science issues facing the 
Nation. It also reflects tough choices and difficult decisions. The 
challenges ahead are great, but the USGS is committed to placing our 
science, data, and information into the hands of decision makers across 
the landscape when they need it and in formats they can readily use. 
The 2012 budget request aims to ensure our multidisciplinary science 
expertise is applied effectively, efficiently, and strategically to 
meet the Nation's most pressing needs today and to preserve our wealth 
of biologic, geologic, geographic, and hydrologic monitoring 
capabilities to meet the needs of tomorrow. The USGS will continue its 
legacy of providing the data, long-term scientific understanding, and 
scientific tools needed to sustain and improve the economic and 
environmental health and prosperity of people and communities across 
the Nation and around the world.
    This concludes my statement, Mr. Chairman. I will be happy to 
answer the questions you and other Members have. I appreciate this 
opportunity to testify before you and this Subcommittee and look 
forward to our continued collaboration.
                                 ______
                                 
    Mr. Lamborn. Well, thank you for your testimony. And at 
this point, we will begin questions for our witnesses. To allow 
all of our Members to participate and to ensure we can hear 
from all of our witnesses, we will limit questions to five 
minutes. However, if Members have additional questions, the 
Chair might consider more than one round of questioning. And I 
now recognize myself for five minutes for the first set of 
questions.
    This morning, the price of oil was at $114.52 per barrel, 
and the average price per gallon of gasoline in the U.S. is 
$3.52. With the ongoing instability in Northern Africa and the 
Middle East, prices will probably continue to climb, adversely 
impacting the nation's economy as a whole and each and every 
U.S. citizen. The working poor and jobless will be harmed the 
most.
    So we import 60 percent of the oil that our country needs, 
and we are 100 percent dependent on 17 different nonfuel 
mineral commodities. How can the Geological Survey in its 
budget continue to support cuts in the energy and minerals 
programs while at the same time increasing significantly the 
budgets for ecosystem restoration and climate change, Director 
McNutt?
    Dr. McNutt. Well, there are of course tough choices that 
had to be made in this budget. The USGS energy program does 
periodically reassess the places in the country where we have 
already done initial assessments, and when we do these 
reassessments, of course, not as resource intensive as when we 
did the initial assessments. Do I wish we could be growing all 
of our programs? Absolutely. But these were tough choices that 
had to be made.
    The same in our minerals program. We wish we could grow 
these programs, but unfortunately that is not the case. Some of 
the money that goes to our ecosystems programs can be used to 
help with domestic development of helping to decide right 
places to do alternative energy programs as well. For example, 
deciding where might be the appropriate places for solar and 
wind energy.
    So it is not as though we draw sharp lines between the 
ecosystems programs and the energy programs. We recognize that 
all of these programs are interrelated.
    Mr. Lamborn. OK. Thank you. Now, there are serious 
workforce issues in the energy and mineral sector, and we are 
in jeopardy of losing accreditation in some of the energy and 
mineral engineering programs around the country. Yet, you zero 
out funding for graduate programs in these fields, while adding 
funding for environmental programs, where from all that I am 
aware of is an abundance of programs at universities around the 
country. Why that apparent disconnect?
    Dr. McNutt. I wasn't aware that we had funding for 
graduate--OK. OK, right. We are maintaining opportunities for 
students in other ways through our minerals program, although 
those particular grant programs did have to be zeroed out 
because of again tough choices in terms of meeting the fiscal 
restraints of the budget. But there will be other opportunities 
to support students.
    And, Mr. Chairman, I have to agree with you that I agree 
completely that the workforce issues are something that we are 
facing. And I will be speaking at Colorado School of Mines as 
their commencement speaker this year, and that will be one of 
my messages, is indeed the workforce issues in mines, the 
number of schools of mines that have closed around the country, 
and the difficulty that we will be facing in terms of replacing 
the many retirements we have in the minerals workforce. It is 
something that we as a nation do need to worry about.
    Mr. Lamborn. Well, thank you, and I am glad you are coming 
out to Colorado. That is an excellent, world-renowned school. 
It is an excellent institution of higher learning, so we 
appreciate your taking the time to encourage them and be there 
for that event. I just wish that the budget that we just talked 
about, that the line items in particular were more reflective 
of a stronger priority on the core mission of USGS, at least 
the original core mission up until recent years maybe, the 
focus that I should like to see on energy and minerals.
    OK. Thank you for your answers, and now I will recognize 
the Ranking Member for any questions he might have.
    Mr. Holt. Thank you, Mr. Chairman. As New Jersey is 
experiencing floods even right now, with more to come, I note 
the proposed reduction in funding for national stream flow 
information and the loss of perhaps hundreds of stream gauges. 
Can you tell us what would be the effect of such reductions? Is 
there remote sensing that somehow replaces this, or we doing 
without the information?
    I have to tell you, that sort of information is critically 
important for the livelihood and lives of people in my 
district.
    Dr. McNutt. I have to agree with you, Congressman Holt, 
that it is hard to look around the USGS and not find a 
program--especially if you look over the past few years--that 
has not had budget cuts and been impacted by cuts to its budget 
that has impacted its mission. And the stream gauge program is 
one that was initially viewed as one that should be a 50/50 
match between cooperators and the USGS.
    It is so far from a 50/50 match today, and for awhile we 
were able to get by with our cooperators paying more than their 
50 percent share. And then, of course, what happened was States 
similarly felt the economic issues that the Federal Government 
was facing, and states found that they no longer could pick up 
more than 50 percent, and so stream gauges started getting shut 
down. And this is definitely putting into jeopardy--we have the 
Secure Water Act, which has in it provisions to create a 
backbone of water gauges, which would help provide at least a 
national network, which would help provide some consistency, 
but yet the funding for that Act has never been completely 
materialized.
    Mr. Holt. Am I correct that the effect now will be the loss 
of hundreds of gauges in the coming year?
    Dr. McNutt. Well, right now we are looking at it as a 
million dollars, and we are going to try to absorb that in 
mainly travel, training, administrative stuff, to the maximum 
that we can, hoping to not absorb that in the stream gauges 
themselves.
    Mr. Holt. Let me ask you to please keep the Subcommittee 
informed as----
    Dr. McNutt. We will do that.
    Mr. Holt.--that goes forward. And perhaps you would like to 
answer in more detail later the rationale behind the reductions 
in the cooperative mapping program and the data preservation 
program. One thing I would like you to address in the minute or 
so that remains, is the recovery, the ARR Act, which provided 
150-ish, $140 million in funds, can you say that those were 
spent wisely, without duplication or redundancy?
    Dr. McNutt. OK. First of all, I will say that the decisions 
on how to spend them were made before I arrived. I looked into 
how they were spent when I arrived, and I was extremely pleased 
with how those decisions were made from the standpoint that--
just to give you an example, our stream gauge program with the 
new technology that was put into play, it allowed us to bring 
those gauges up to a standard in terms of the new satellite 
network that they were able to communicate with. It allowed us 
to connect those new gauges with a new protocol for the 
satellite communications that otherwise would have rendered so 
many of those gauges obsolete and unable to communicate back to 
the network that it saved us so much in future budgets to be 
able to bring those up to standards.
    It took the advanced seismic network and took it 10 years 
into the future in terms of that funding. So very wise 
decisions, and ones that made sense for the USGS because we did 
not have construction authorities. So it was right sized for 
the USGS, right decisions.
    Dr. McNutt. I am pleased you could put that in the record. 
Thank you. Thank you, Mr. Chairman.
    Mr. Lamborn. And thank you. I would like to now recognize 
the gentleman from Idaho, Mr. Labrador.
    Mr. Rivera. Excuse me.
    Mr. Lamborn. OK. Idaho, Florida, it doesn't matter, either 
way. Mr. Rivera from Florida.
    Mr. Rivera. How are you doing?
    Mr. Lamborn. Please accept my apology.
    Mr. Rivera. That is OK. The weather is a little bit 
different, but other than that, it is pretty much the same. We 
love potatoes in Miami.
    As the representative from South Florida, I am very 
concerned about news reports regarding exploration of resources 
off the coast of Cuba. And I am wondering if the USGS has 
conducted any recent research in coordination with the Cuban 
dictatorship regarding these resources, and if so, what has 
been the extent of those efforts?
    Dr. McNutt. USGS does have estimates of--you are talking 
about oil resources?
    Mr. Rivera. Oil and natural gas.
    Dr. McNutt. Yes.
    Mr. Rivera. Any type of resources that----
    Dr. McNutt. Oil and natural gas.
    Mr. Rivera. Any research that may have been conducted in 
conjunction with the Castro regime.
    Dr. McNutt. Yeah. I am not sure to what extent that they 
are in conjunction with the Castro regime. I know that the most 
recent USGS estimate of undiscovered oil and natural gas is 
about 5 billion barrels of oil and about--I think it is about 
10 trillion----
    Mr. Rivera. How long ago was that estimate?
    Dr. McNutt.--cubic--what is the--well, we will get back to 
you for on the record for that. But I don't think that the 
numbers have changed. But we can get back to you on the record 
for that.
    Mr. Rivera. So recently, and I would say--because my 
understanding is the last time there were any estimates was 
about a decade ago. And I am wondering if there are any recent 
efforts to do any research, and if so, if any of that has been 
in coordination with the Cuban government?
    Dr. McNutt. Yeah. I doubt that anything has been done in 
conjunction with the government. That would not be--no.
    Mr. Rivera. So how would it be done?
    Dr. McNutt. The typical way that we do that is using 
geophysical data and using geological assessments of 
depositional environments and----
    Mr. Rivera. I have no idea what that means.
    Dr. McNutt. Ah, OK.
    Mr. Rivera. Depositional environments.
    Dr. McNutt. OK. In other words, we understand based on 
knowing the kinds of environment that is around Cuba, knowing 
remote sensing data from gravity data and other data like that 
what the likely crustal structure is around Cuba. And knowing 
analogies in similar environments, we know the age of the 
sediments there. We know how they likely were formed. And there 
was industry spec seismic data that was from 2004 that was 
done.
    Mr. Rivera. In 2004?
    Dr. McNutt. Yeah.
    Mr. Rivera. OK. So to your knowledge right now, just here 
at this hearing, you are not familiar with anything recently 
that has been conducted, particularly not in coordination with 
the Cuban dictatorship?
    Dr. McNutt. No.
    Mr. Rivera. OK. Thank you very much. I yield back the 
remainder of my time.
    Mr. Lamborn. OK. Thank you, Mr. Rivera. I would now like to 
recognize the gentleman from Maryland, Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman. Thank you for being 
here. Now I have moved out of your line of sight. Sorry about 
that.
    Dr. McNutt. I can move.
    Mr. Sarbanes. I first off wanted to echo Ranking Member 
Holt's observation that the hydraulic fracturing issue is 
certainly going to be one that we give close attention to going 
forward. The industry is presenting it as holding great promise 
as a kind of bridge from traditional conventional sources of 
energy to, you know, renewable energy sources, and it is going 
to be that natural gas bridge arguably, and they are also 
clearly in a position to make huge profits from this as well. 
And my view is if the promise of this technology is all that it 
is being presented as, then the industry certainly is in a 
position to make sure they do it right. And if that means kind 
of slowing things down and getting off of what appears to be a 
kind of pell-mell schedule operating with respect to the 
Marcellus Shale, then I think that is something that ought to 
be given real consideration, and I expect we are going to have 
a number of different opportunities to bring that issue to the 
Administration and to others.
    I did want to ask you--and you won't be surprised probably 
by this question, as you attended the ribbon cutting at the 
Patuxent Wildlife Refuge Center when we were celebrating the 
American Recovery and Reinvestment Act funds that went to 
really address some very dilapidated structures there, and 
begin to renovate this incredible facility, which is operated 
by the USGS. As you know, it is the nation's only national 
wildlife refuge which was established originally to support 
wildlife research. It was very instrumental in providing data 
on the effects of DDT, leading to the ultimate ban in 1972. 
Patuxent is celebrating its 75 anniversary this year, and I 
could go on and on about why it is a critical resource. I think 
you know those facts.
    But I guess I am aware from the line items of the budget 
that there are not the resources being put into kind of 
finishing out the project arguably that was begun by the ARRA 
funds. And I wanted to ask you to speak to that because the 
research that is being done there, the science that is 
conducted there, is so critical to the Nation that to not 
finish out this process, complete this project, I think is a 
real mistake. And I would be curious as to the thought process 
that went into that.
    Dr. McNutt. Yeah. The ARRA funds for the replacement of the 
infrastructure and the funding, basically it is done. We have 
the funding in place.
    Mr. Sarbanes. Well, most of the ARRA funds, as I understand 
it, were going to some of the demolition, some of the design 
with respect to the new structures that need to be put there. 
And now it is a question of whether that piece of it is going 
to be finished out, which is going to rely on some non-ARRA 
resources.
    Dr. McNutt. Yeah. We worked out a partnership with Fish and 
Wildlife Service.
    Mr. Sarbanes. Which will do what?
    Dr. McNutt. To put together the final funding for it.
    Mr. Sarbanes. OK. So you do expect that to happen then.
    Dr. McNutt. Yes.
    Mr. Sarbanes. OK. I appreciate that. Thank you very much. I 
yield back my time.
    Mr. Lamborn. Thank you. And I would like to now recognize 
the gentleman from Tennessee, Mr. Fleischmann.
    Mr. Fleischmann. Thank you, Mr. Chairman, and welcome, 
Director McNutt. I represent the Third District of Tennessee. I 
just have one question today, ma'am. The USGS budget provides 
for 133.9 million for natural hazards, which is $5.1 million 
below the 2010 enacted 2011 CR. As you all are cutting your 
budget for monitoring hazardous activity that could reduce 
fatalities in the immediate future, it appears that you all are 
increasing funds for programs and research that promote climate 
change prevention and doesn't save lives in the near future.
    Can you kindly provide an explanation of why you made these 
cuts?
    Dr. McNutt. Right. The climate change program actually has 
been cut substantially. I think there are a total of $9 million 
of cuts in the climate change program. So it actually sustained 
a much larger cut than the hazards program. And basically, 
quite a few programs had to take cuts.
    Our hazards program has been a program that we have been 
very loathe to cut over the years because it is something that 
is quite uniquely done by the USGS. And so it has been one that 
over the years has been perhaps taken fewer cuts than some of 
the other programs within the USGS. And just because of how 
tight the fiscal climate was for this coming year, it did have 
to take some hit, though perhaps less than some of the other 
programs.
    And the part of the hazards program which is being cut is 
the NetQuakes program in the Pacific Northwest, which was going 
to put out some low-cost accelerometers, which would help do 
some fine-scale understanding of how buildings and other 
infrastructure might respond to an earthquake in the Pacific 
Northwest. And also, it would impact some multi-hazards work 
and some work in Alaska as well. And those are the parts of the 
program which will be delayed.
    Mr. Fleischmann. Thank you, ma'am. Mr. Chairman, I yield 
back.
    Mr. Lamborn. Thank you. And I would like to now recognize 
the gentleman from Louisiana, Mr. Landry.
    Mr. Landry. Thank you. Ms. McNutt, do you know how long we 
have been using the fracking process in this country?
    Dr. McNutt. Oh, well, if you include generic fracking in 
terms of enhanced oil recovery, for probably decades.
    Mr. Landry. And it seems like after we use a system for 
decades, we would have a lot of data involved in the safety 
aspects and any risk that it may pose. Wouldn't you agree with 
that?
    Dr. McNutt. I would suppose.
    Mr. Landry. I mean, 50 years, that is a long time. Well, it 
is maybe 60 years. I am trying to understand, you know, why 
people keep dealing with these fracking issues when, you know, 
if we were using natural gas to fuel our vehicles, we would be 
paying about 75 cents a gallon. That is a little better at the 
pump right now, wouldn't you think?
    Dr. McNutt. Some people do use natural gas to fuel their 
vehicles.
    Mr. Landry. That is right. I think we should use more of 
them. I guess the point I am trying to make is that, you know, 
we continue to pour resources sometimes in this government 
looking for an answer that we hope to find rather than one that 
is already in front of our face. I just wanted to make sure 
that me and you were on the same wavelength when it comes to 
how long we have been fracking for oil and gas in this country.
    My question to you is how will the changes in your budget 
affect your all ability to properly do the geological work 
necessary for lease sales in the Gulf of Mexico?
    Dr. McNutt. We don't do geological work for lease sales.
    Mr. Landry. But you all provide the data, though, correct?
    Dr. McNutt. We don't--that is not actually our 
responsibility for doing--we don't do any regulatory work.
    Mr. Landry. No, no, no. I know. But you all provide the 
data that is used to build--you all do geological surveys in 
the Gulf of Mexico, correct?
    Dr. McNutt. Well, it has been probably quite some time 
since we have done marine surveys in the Gulf of Mexico. I 
can't remember the last time that we have done a marine survey 
in the Gulf of Mexico. It has been----
    Mr. Landry. It has been a long time?
    Dr. McNutt. Yeah.
    Mr. Landry. OK. I yield back.
    Mr. Lamborn. OK. Thank you. Now, with the Director's 
indulgence, we would like to have a second round of questions. 
We are only down to four of us, so that should be a little 
faster. And let me ask about two particular line items that are 
in the budget, just to better understand what these programs 
are about. Your agency has requested $166 million for 
ecosystems mission area support for America's Great Outdoors 
program. Can yo explain what that money is going for?
    Dr. McNutt. The President and the Secretary have a new 
initiative, America's Great Outdoors, where the purpose is to 
help restore some of the iconic landscapes, the Chesapeake, the 
Great Lakes, the Upper Mississippi, Puget Sound, some of the 
places where Americans live, work, and play. It is a very 
broad-based initiative in terms of helping people to get 
outdoors, to hunt, to fish, to recreate in these beautiful 
places, and also to make them more productive in terms of 
places where people farm and----
    Mr. Lamborn. OK. That is exactly what I was understanding, 
and I am concerned about that. It sounds wonderful, but to me 
it does not sound like a core function of the U.S. Geological 
Survey. I mean, I just have to call in question the need for 
this department to be spending $166 million on sort of a 
nebulous program that is not related to the core mission of the 
Geological Survey.
    Dr. McNutt. Yeah. You know, we support America's Great 
Outdoors, but we actually have no direct funds. I think the 
$166 million sounds like--that doesn't sound like--166 million 
doesn't sound like----
    Mr. Lamborn. Well, I think this is accurate because it is 
from your testimony, your written testimony.
    Dr. McNutt. OK. In ecosystem restoration, we have a total 
of 9-1/2 million of funding, but that money goes to water 
programs. It goes to mapping programs. It goes to toxics and 
human health. So it actually goes to very core things that the 
USGS does in support of America's Great Outdoors.
    Mr. Lamborn. OK. Well, maybe the testimony was a little 
ambiguous.
    Dr. McNutt. OK.
    Mr. Lamborn. The written testimony.
    Dr. McNutt. Yeah.
    Mr. Lamborn. The written portion of your testimony.
    Dr. McNutt. Because we will be doing the GIS, so the maps. 
We will be doing stream gauges, water--so it will go help to 
support our water programs. It will support our mapping 
programs. It will support our toxics programs, our water 
quality programs. It will be supporting basic USGS programs 
that are therefore linked to America's Great Outdoors.
    Mr. Lamborn. OK. That explains it better. That huge amount 
for a nebulous program really concerned me. I understand a 
little better. I still have some concerns, but I do understand 
better the role of the Survey.
    Dr. McNutt. Right.
    Mr. Lamborn. But second, there is the $106.4 million for 
climate and land use change activity, including completion of 
the Interior climate science centers.
    Dr. McNutt. Yes.
    Mr. Lamborn. And funding for new efforts associated with 
carbon sequestration in the California Bay Delta. Could you 
please explain that line item?
    Dr. McNutt. OK. The climate science centers are completing 
a series of science centers that are at universities, actually 
a consortia of universities that were put out by an RFP, in 
which in each section of the country we put out a call for 
proposals, and consortia of universities put in absolutely 
stellar proposals that were chosen then by peer review panels 
to bid on these. And these climate science centers actually 
work very closely then with groups, on-the-ground groups, of 
stakeholders that include state agencies, farming cooperatives, 
emergency managers, different groups, to say what kind of 
information do you want to know about what is coming in the 
next decade that will help you to decide what kind of water 
projects you need to do, what kind of communities you need to 
build, what kind of hazards you need to worry about, so that 
they can help them provide the science that will help them in 
their planning.
    Mr. Lamborn. OK. Thank you. And now I would like to 
recognize the Ranking Member, Mr. Holt.
    Mr. Holt. Thank you. Let me clarify a point from that last 
discussion and make sure I understand. The figure of 166 
million applies to the entire ecosystems mission area, does it 
not?
    Dr. McNutt. Right.
    Mr. Holt. OK. And so it is not just in support of----
    Dr. McNutt. America's Great Outdoors.
    Mr. Holt. OK.
    Dr. McNutt. Right.
    Mr. Holt. And even what is in support of America's Great 
Outdoors, it sounds to me like it is relevant to work that you 
would be doing anyway.
    Dr. McNutt. Right.
    Mr. Holt. Stream gauges, et cetera.
    Dr. McNutt. Right.
    Mr. Holt. OK. Thank you. The cut in the minerals line, can 
you assure us that this does not reduce any of your efforts in 
domestic rare earth geology?
    Dr. McNutt. The cut in the minerals area--and, you know, as 
I say, we are sorry to have to take a cut anywhere. It is kind 
of like which finger do you want to cut off. But the cut we are 
taking there is in our international----
    Mr. Holt. International.
    Dr. McNutt.--minerals program, and it is to focus actually 
on our domestic minerals program because that is where we 
figure we really are vulnerable. We need to do something about 
that.
    Mr. Holt. So you are assuring us that you are proposing no 
reduction in the domestic geology.
    Dr. McNutt. Right.
    Mr. Holt. OK. Thank you. I spoke in my opening remarks 
about our call for the review of--for an expert, a standing, 
permanent expert body, to look at such things as oil flow from 
offshore drilling. And I just would like to have your word of 
whether or not you think USGS has the expertise to head that 
up, to provide the guidance, as we have proposed in the 
legislation.
    Dr. McNutt. Yes, we do.
    Mr. Holt. OK. Thank you. And would you support 
congressional action to do--I am not sure whether you are 
familiar with our legislation. But would you support some kind 
of congressional action to have such permanent expert panel?
    Dr. McNutt. You know, I don't think I can comment on 
pending legislation.
    Mr. Holt. OK, fine.
    Dr. McNutt. But what I can say is that doing science during 
an ongoing emergency is never the right way to do it. And I 
think it is a good idea to vest within a science agency the 
authority to keep their eye on the ball and to be thinking in a 
strategic way about the next emergency, and constantly being 
nimble to have the answers ahead of time.
    Mr. Holt. OK. In the time remaining, could you say a few 
words about Landsat 8? The USGS role, how the system will 
enhance the nation's ability to collect information, and the 
extent to which that information contributes to national 
economic interests.
    Dr. McNutt. Yes. Well, Landsat 8 is scheduled to be 
launched in December of 2012. As you may know, we are sort of 
flying with a wing and a prayer with Landsats 5 and 7. They 
have both performed well beyond their design lives. And in 
fact, there has been a major failure of the land scanner on 7, 
which has compromised its ability to provide----
    Mr. Holt. If I may ask you to speed up a little bit. We 
have less than a minute remaining.
    Dr. McNutt. Oh, OK, sorry.
    Mr. Holt. And I do want you to address the question of the 
economic value of----
    Dr. McNutt. Yeah. The economic value of Landsat is many 
times its cost to the taxpayers, for farmers, for water use, 
for companies in terms of just the--for city planners in terms 
of looking at land use. We have this report that we would be 
happy to give you, which documents the dollars and cents and 
the value for planners, for developers, for agricultural 
communities, for government agencies. It gives all the dollars 
and cents in a recent survey.
    Mr. Holt. If you would care to provide a page or two 
summary of that for the record----
    Dr. McNutt. We can do that, yes.
    Mr. Holt.--that would be good. And we will make sure that 
Members of the Subcommittee have access to the full report. 
Thank you.
    Mr. Landry [presiding]. Mr. Fleischmann?
    Mr. Fleischmann. Mr. Chairman, I have no further questions. 
I yield back. Thank you.
    Mr. Landry. The witness is dismissed.
    Mr. Holt. And if I may add, my thanks to the Director for 
her good testimony.
    Mr. Landry. Yes. I am sorry. Thank you for your testimony. 
At this point, we will begin questioning the witnesses. To 
allow Members to participate, and to ensure that we can hear 
from all of our witnesses today, we will limit them to five 
minutes. Let us see.
    [Pause]
    Mr. Lamborn [presiding]. OK. We are now ready for our next 
panel of witnesses. I want to welcome Dr. Richard Aster, 
President of the Seismological Society of America and the New 
Mexico Institute of Mining and Technology; Mr. John Palatiello, 
Executive Director of MAPPS; Dr. Jonathan Price, State 
Geologist of Nevada, representing the American Association of 
State Geologists, and the Director of Nevada Bureau of Mines 
and Geology at the University of Nevada, Reno; and Dr. Craig 
Schiffries, Director for Geoscience Policy with the Geological 
Society of America.
    All of the witnesses are reminded again that their complete 
written testimony will appear in the record, and you have five 
minutes to summarize it. Thank you for being here. And, Dr. 
Aster, you may begin.

   STATEMENT OF DR. RICHARD ASTER, PRESIDENT, SEISMOLOGICAL 
  SOCIETY OF AMERICA, EES DEPARTMENT, NEW MEXICO INSTITUTE OF 
                     MINING AND TECHNOLOGY

    Dr. Aster. Chairman Lamborn, Ranking Member Holt, Members 
of the Subcommittee, thank you for inviting me to testify at 
this hearing on the mission of the U.S. Geological Survey and 
the President's 2012 budget proposal.
    I speak today on behalf of the Seismological Society of 
America, an international scientific society devoted to the 
advancement of seismology and its applications in understanding 
and mitigating earthquake hazards.
    Some of the most important work of the USGS, as has already 
been acknowledged, is accomplished with a new natural hazards 
mission area, which includes earthquakes and volcanoes and 
other hazardous natural phenomenon. My testimony is on the USGS 
earthquake programs, and specifically reflects concerns about 
reductions in the President's request for the Earthquake 
Hazards Program and the Global Seismographic Network.
    We ask this committee to reconsider these cuts and press 
for restoration of funding needed for the USGS to continue 
these science and public safety programs. Earthquakes pose 
significant risks to 75 million Americans in 39 states, as well 
as Puerto Rico, the U.S. Virgin Islands, and a number of 
Pacific Territories. Under the Disaster Relief Act of 1974, the 
USGS is the only Federal agency with responsibility for 
recording and continuously evaluating domestic and global 
earthquake activity. The USGS sets the world's standard for 
providing the most accurate and timely information available 
from any source, including where and how strongly the ground 
shook, immediate estimates on fatalities, and economic impact, 
and the likelihood of future significant shaking.
    Earthquakes also generate destructive tsunamis that threat 
tremendous loss of life and property. The same USGS 
seismographic monitoring system used for earthquake monitoring 
also provides vital data to tsunami warning systems operated by 
NOAA. Seismic monitoring and seismological science are critical 
elements of the USGS volcano hazards program that provides 
vital warnings to protect populations and aviation.
    Seismic monitoring systems supported by the USGS and its 
partners include the USGS Advanced National Seismic System, or 
ANSS, and the Global Seismographic Network, GSN. These systems 
provide indispensable baseline information on the interior of 
the earth and its dynamic natural processes that drive 
scientific understanding and advance the societal benefits.
    At the forefront of this monitoring and science capability 
is the National Earthquake Information Center located in 
Golden, Colorado, on the campus of the Colorado School of 
Mines. NEIC rapidly determines the location and size of all 
significant earthquakes on earth and disseminates this 
information immediately to concerned national and international 
agencies, scientists, critical facilities, and the general 
public.
    NEIC also collects and provides to scientists and the 
public an extensive seismic database that provides the 
foundation for scientific research. A sobering issue facing the 
U.S., as well as many other nations, is the increasing exposure 
to strong earthquake ground motion as the world economy and 
population grows. The results of poor building practices in 
seismically active regions can be catastrophic. Can I have the 
second slide, please?
    A recent example that has already been mentioned is the 
2010 magnitude 7 Haiti earthquake, which claimed over 230,000 
lives. Events of this size occur roughly 20 times per year 
somewhere on earth. However, the Haiti earthquake struck a 
woefully underprepared nation and city with no seismic building 
codes.
    A stunning counter-example--next slide, thank you--is the 
Chile earthquake of 2010, which struck a nation with building 
codes that compare comparably with high-risk regions of the 
United States. The Chile earthquake released 500 times as much 
as seismic energy, shook a much larger area, and affected a 
larger population than the Haiti earthquake, but resulted in 
approximately 500 fatalities. That is .2 percent of the number 
of fatalities in Haiti.
    However, our database's strong ground motion recordings and 
scientific studies of damaged cities is highly incomplete. Next 
slide, please. Keep going. Next one. Thank you. This is 
tragically demonstrated by recent events in New Zealand, which 
like Chile had similar building codes to those of high-risk 
regions of the U.S. A shallow earthquake about the same size of 
the Haiti earthquake struck near Christ's Church on September 
3, 2010, and resulted in not one fatality.
    However, on February 21st of this year, a much smaller 
magnitude 6 aftershock, which occurred much closer to the city, 
produced acceleration substantially exceeding that of gravity, 
or 1G. The result was widespread destruction. The number of 
fatalities is expected to exceed 250. There is no scientific 
reason to expect that shallow, high-acceleration earthquakes 
similar to this event cannot occur beneath cities in a number 
of seismically active regions of the United States. Regions at 
risk include Alaska, California, the Pacific Northwest, the 
Inner Mountain West, parts of the Central U.S., Puerto Rico, 
and the U.S. Virgin Islands.
    In addition to activities performed by USGS staff, 
expertise in earthquake studies that exist outside of the 
Federal Government is applied through a substantial program of 
grants, cooperative agreements, and/or contracts with 
universities, State and local government agencies. The 
President's 2012 budget calls for a $2 million cut to the 
external research component of the earthquake hazards program. 
This is fully one-third of the funding provided for these 
competitive external research grants and cooperative 
agreements.
    The students lost, the relationships severed, the data not 
obtained due to these cuts cannot easily be reclaimed in the 
future.
    Mr. Chairman, this concludes my remarks. I will be pleased 
to answer any questions you or the Subcommittee may have at 
this time.
    [The prepared statement of Dr. Aster follows:]

   Statement of Dr. Richard C. Aster, President of the Seismological 
 Society of America, and Professor of Geophysics, New Mexico Institute 
                        of Mining and Technology

    Chairman Lamborn, Ranking Member Holt, Members of the Subcommittee, 
thank you for inviting me to testify at this hearing on the mission of 
the U.S. Geological Survey (USGS) and the President's FY2012 budget 
proposal. I speak today on behalf of the Seismological Society of 
America (SSA), an international scientific society, founded in 1906, 
devoted to the advancement of seismology and its applications in 
understanding and mitigating earthquake hazards. SSA was founded to 
promote research in seismology, the scientific investigation of 
earthquakes and related phenomena, to promote public safety by all 
practical means, and to enlist the support of the people and the 
government in the attainment of these ends. SSA is the largest and most 
respected society of earthquake seismologists in the world and is 
aligned with numerous other scientific and engineering organizations to 
promote earthquake risk reduction worldwide.
    The USGS is a science organization that provides impartial 
information on the health of our ecosystems and environment, the 
natural hazards that threaten us, the natural resources we rely on, the 
impacts of climate and land-use change, and the core science systems 
that help us provide timely, relevant, and useable information. Some of 
the most important work of the Survey is accomplished within the new 
Natural Hazards Mission Area, which includes earthquakes, volcanoes, 
landslides and coastal and marine geology, amongst others. My focus in 
this testimony is on the USGS programs regarding earthquakes, and 
reflects concern about the reductions in the President's request for 
the Earthquake Hazards Program and the Global Seismographic Network.
    While it might seem that earthquakes are confined to a small 
segment of the nation, the fact is earthquakes pose significant risk to 
75 million Americans in 39 States. The USGS is the only Federal agency 
with responsibility for recording and continuously reporting earthquake 
activity nationwide and globally. The USGS, through its Earthquake 
Hazard Program, provides citizens, emergency responders, and engineers 
with the most accurate and timely information available from any source 
on where an earthquake occurred, how much the ground shook in different 
locations, immediate estimates on fatalities and economic, and on the 
likelihood is of future significant ground shaking. Because the seismic 
waves generated by earthquakes easily travel through the entire body of 
the earth, US Geological Survey rapid evaluations of earthquake size, 
damage, and other attributes, are the widely acknowledged worldwide 
standard for such information.
    Earthquakes can generate destructive tsunamis that span 
international boundaries the same USGS seismographic monitoring system 
used for earthquake monitoring also provides vital information on 
tsunami generation, and is critical to informing tsunami warning 
systems operated by NOAA. Seismic monitoring and seismological science 
also provide key measurements of unrest on volcanoes, and are critical 
elements of the USGS Volcano Hazards Program that provides vital 
warnings to protect nearby populations and aviation.
    The USGS is a world leader in earthquake science, data collection 
and dissemination. The global seismic monitoring systems supported by 
the USGS and its partners include two critical elements, the U.S.-based 
Advanced National Seismic System (ANSS; which has many components 
operated in association with U.S. universities) and the Global 
Seismographic Network. Additionally, USGS has the assigned Federal 
responsibility for monitoring and notification of seismic activity in 
the United States. The USGS fulfills this requirement via the ANSS. 
These seismic monitoring systems provide the fundamental and 
scientifically indispensable baseline information on the interior of 
the earth, and on its dynamic natural processes that drives scientific 
understanding and advance societal benefits. These networks are very 
efficient and cost effective data collection and processing systems; as 
was noted in the 2008-2009 USGS Director's Scientific Earthquake 
Studies Advisory Committee (SESAC), ANSS is the highest scoring major 
information technology capital investment made by the Department of the 
Interior. In the report, the top recommendation for the USGS to be able 
to continue to carry out its mission and continue to provide essential 
data products to dramatically lower earthquake effects, calls for the 
full funding of ANSS, (http://earthquake.usgs.gov/aboutus/sesac/
reports.php).

    At the forefront of the USGS' earthquake science capability is the 
National Earthquake Information Center (NEIC), located on the campus of 
the Colorado School of Mines in Golden, Colorado. The NEIC determines, 
as rapidly and as accurately as possible, the location and size of all 
significant earthquakes that occur worldwide. The NEIC disseminates 
this information immediately to concerned national and international 
agencies, scientists, critical facilities, and the general public. NEIC 
also collects and provides to scientists and to the public an extensive 
seismic database that serves as a solid foundation for scientific 
research, principally through the operation of modern digital national 
and global seismograph networks and through cooperative international 
agreements. The NEIC is the U.S. national data center and archive for 
earthquake information. As a research facility, the NEIC pursues an 
active program to improve its ability to locate earthquakes and to 
understand earthquake physics, geology, and effects.
    To not only survive a strong earthquake, but to be able to thrive 
afterwards, is a function of the size of the earthquake, its proximity 
to densely populated areas, and the construction of the buildings 
affected by the quake. To this end, science directs the essential 
operation of networks of sensitive seismographs that provide the core 
data for the detection and rapid assessment of earthquakes, and the 
more detailed analyses that follow. Additionally, science directs 
research into the nature of the geological processes involved and 
impacts on people and infrastructure. Science is employed to inform 
every recommendation to building codes to create more earthquake 
resilient buildings. Earthquake science and engineering saves lives, 
and the USGS is a cornerstone of US world leadership in this area.
    A sobering issue facing the U.S. (as well as many other nations) is 
the increasing exposure to strong earthquake ground motion from 
earthquakes as the world economy and population grows, and the 
necessity of mitigating this hazard. USGS National Seismic Hazard Maps 
form the baseline probabilistic estimates for mitigation in the U.S.
    In a poorly designed and built environment, the results of poor 
building practices can be catastrophic. A recent example of a too 
common situation worldwide is the January 12, 2010 Haiti earthquake, 
which claimed over 230,000 lives. The earthquake was magnitude 7, and 
events of this size occur roughly 20 times per year somewhere on earth. 
However, the Haiti earthquake struck a woefully unprepared nation and 
city with no seismic building codes, and the result has been tremendous 
loss of life, civic devastation, and severe societal disruption. A 
stunning counterexample to the devastation of the Haiti earthquake was 
the magnitude 8.8 Chile earthquake of February 27, 2010. This 
earthquake shook a much larger area than the Haiti earthquake (and 
released approximately 500 times more seismic energy), but resulted in 
approximately 500 fatalities, which is 0.2% of the number of fatalities 
in Haiti. Chile has building codes that compare favorably with high-
risk regions of the U.S.
    However, our record of strong ground motion recordings and 
scientific studies of damaged cities is highly incomplete, and we are 
far from fully understanding or acting on the threats posed to society 
by earthquakes. This is tragically demonstrated by recent events in New 
Zealand, which has similar building codes to those of high-risk regions 
of the U.S. A shallow earthquake of approximately the same size as the 
Haiti earthquake struck near New Zealand's second largest city, 
Christchurch, on September 3, 2010, and resulted in not one fatality. 
On February 21st of this year, as the city was still recovering from 
the 2010 event, a moderate-sized (magnitude 6.3) earthquake again 
struck Christchurch. This event was much closer to the city center than 
the 2010 magnitude 7 event, and produced unexpectedly (near record) 
accelerations exceeding 1.8 times that of gravity. The result was 
widespread destruction within the city, and the number of fatalities is 
expected to exceed 250. The shaking was so extreme during this 
earthquake that it is likely that a third or more of the major business 
district buildings will be total losses. The experience of this 
February's Christchurch earthquake tragically informs us that there is 
still much to learn through further research and forensic engineering 
about the potential for extreme ground motions and about their effects 
on the built environment. It is noteworthy that there is no scientific 
reason not to expect that shallow, high-acceleration earthquakes 
similar to the most recent Christchurch event cannot occur beneath 
cities in a number of seismically active regions of the United States, 
including Alaska, California, the Pacific Northwest, the intermountain 
west, and the Central US.
    The USGS plays a critical role in earthquake preparedness and 
planning by working with communities to develop earthquake scenarios 
and exercises. Earthquake scenarios provide a means to visualize 
community impacts from earthquakes without actually having the event 
occur. Scenarios provide a basis for communities to define their own 
level of acceptable level of risk and develop risk-reduction policies. 
Scenarios help answer questions like ``Have we done enough?'' and 
enable communities to identify appropriate actions to reduce their 
level of risk.
    With the success of the Great Southern California ShakeOut in 
California in 2008, a scenario which simulated a 7.8 magnitude 
earthquake in Southern California and had a record 5 million 
participants statewide (repeated in 2009 and 2010 with 7 million and 8 
million participants, respectively), other communities have taken the 
opportunity to increase awareness for earthquake hazards and implement 
their own ``ShakeOut'' operations. The Great Central US ShakeOut, 
scheduled for 10:15 a.m. on April 28, capitalizes on the bicentennial 
of the large New Madrid, Missouri, earthquakes of 1811-1812 to raise 
public awareness of earthquake hazards in the heartland and increase 
preparedness. The Central US ShakeOut encompasses 11 states (IL, IN, 
MO, KY, TN, OK, AR, MS, AL, GA, and SC) and already has 850,000 
registered participants. Exercises of this scale aim to incorporate all 
levels of the community, from schools, to businesses to government, and 
highlight the appropriate steps to take to prepare for an earthquake 
and remain safe if an earthquake strikes.
    In addition to activities performed by USGS staff, expertise in 
earthquake studies that exist outside the federal government is applied 
through a substantial program of grants, cooperative agreements and/or 
contracts with universities, state, regional and local government 
agencies, and private industry. Targeted research funding through the 
earthquake grants program has been key to the development of the USGS 
Seismic hazards maps, urban seismic hazards maps and the National 
Earthquake Information Center's rapid response products used by 
emergency personnel and key decision makers to allocate emergency 
resources in the event of an earthquake. The President's FY2012 budget 
calls for a $2 million cut to the External Research component of the 
Earthquake Hazards Program. This proposed cut eliminates 1/3 of the 
funding provided by Earthquake Hazards Program for competitive, peer-
reviewed, external earthquake research grants and cooperative 
agreements with State governments, the academic community, and the 
private sector.
    Proposed cuts to external grants and other programs would directly 
impact:
        <bullet>  The continued development of national and urban 
        seismic maps that inform planners, builders, governments, and 
        citizens.
        <bullet>  The operation of the Global Seismographic Network
        <bullet>  Cooperative agreements between the USGS and 
        University and State partners in support of a prototype 
        Earthquake Early Warning System in California that can provide 
        up to tens of seconds of warning to areas of high vulnerability 
        before strong ground motion begins.
        <bullet>  State geological survey mapping in support of 
        earthquake loss reduction in the New Madrid Seismic Zone, a 
        highly vulnerable region of the nation's midsection that has 
        experienced strong earthquakes.
        <bullet>  The use of LiDAR in the Pacific Northwest to identify 
        faults under heavily forested landscapes, an activity that will 
        greatly expand our understanding of the shallow earthquake 
        hazard of that region.
        <bullet>  The Southern San Andreas Fault Evaluation project at 
        the Southern California Earthquake Center, a 40-institution 
        research consortium that the USGS funds in partnership with the 
        National Science Foundation to better understand the timing and 
        slip, and the attendant seismic hazard, of the San Andreas 
        fault system.
        <bullet>  Critical funding for graduate students, postdoctoral 
        researchers, and other young scientists necessary to maintain 
        U.S. preeminence in this field, and to advance mitigation of 
        earthquakes hazards in the U.S.

CONCLUSION
    The USGS is a U.S. and world-leading science and science-driven 
agency dedicated to the furtherance of the understanding of our planet, 
its resources and how to best live and thrive on it. The USGS is an 
essential agency in ensuring that basic science results in applications 
that save lives.
    In these difficult economic times, when budget decisions aren't 
between what to fund and what not to fund, but are instead centered on 
what to cut and what not to cut, we can't lose sight of the incredible 
progress that science has made to the nation and do all we can to 
ensure we continue to invest in science. The budget cuts proposed in 
the President's FY2012 budget hamstring core science programs within 
the Hazards Programs at the USGS, and undercut investment in future 
scientists that we hope will continue to both advance our scientific 
understanding and protect society from earthquakes. The students lost, 
the relationships severed, the data not obtained due to these cuts, 
cannot easily be reclaimed in the future. We ask this Committee to 
reconsider these cuts and press for restoration of the funding needed 
for the USGS to continue these valuable science and public safety 
programs.
    Mister Chairman, this concludes my remarks. I will be pleased to 
answer any questions you or the subcommittee may have at this time.
                                 ______
                                 
    Mr. Lamborn. Thank you for your testimony. Mr. Palatiello. 
And I believe your agency is the Management Association of 
Private--help me here, please.
    Mr. Palatiello. Photogrammetric.
    Mr. Lamborn. Photogrammetric----
    Mr. Palatiello. Surveyors.
    Mr. Lamborn. Surveyors. OK. Thank you for being here, and 
please present your testimony.

             STATEMENT OF MR. JOHN M. PALATIELLO, 
                   EXECUTIVE DIRECTOR, MAPPS

    Mr. Palatiello. Thank you, Mr. Chairman. Thank you for the 
opportunity to present our views, to you, Mr. Chairman and Mr. 
Holt.
    MAPPS is the national association of private geospatial 
firms. Photogrammetry is photography. Grammetry is measurement, 
so it is measurement or the making of maps from aerial 
photographs. Geospatial, that was the origin of our 
organization. Geospatial is much broader than that now, and so 
our membership includes the full spectrum of private firms in 
the broad geospatial field.
    In our view, there is a critical need to refocus the 
mission and the priorities of the USGS. As you mentioned in 
your opening statement, Mr. Chairman, the USGS operates 
primarily under authorization provided by the Act of March 3rd, 
1879. It has been decades since Congress has enacted major 
surveying and mapping legislating affecting the USGS.
    The underpinning for where we believe the USGS priority 
today should be is in the national spatial data infrastructure. 
The NSDI was established by President Clinton by executive 
order and reaffirmed by President Bush, and it provides a 
framework for the geographic information needs that our nation 
has today.
    However, that priority is not reflected in the USGS budget. 
The national map is the key component of USGS in the NSDI. But 
we are deeply disappointed that partnerships to facilitate this 
activity is proposed to be cut in the President's Fiscal Year 
2012 budget.
    I would like to call to your attention a very candid 
comment in the USGS budget justification, quote, ``The 
reduction would result in reduced work for America's geospatial 
industry, which benefits by fulfilling contracts for projects 
that result from agreements the national geospatial program 
makes with its cooperators,'' unquote.
    Mr. Chairman, this is the last place we should be cutting 
the USGS budget. A reduction in partnerships will result in 
more duplication, less coordination, and less leveraging of 
scarce resources. As I have shown, I believe, in the first 
slide that I have--this is a USGS slide. By their own analysis, 
for every dollar invested in partnerships for geospatial data 
of appropriated funds to GS, more than eleven dollars in 
partnership dollars is leveraged. For things like imagery, it 
is 20 to 1. So when you reduce partnerships, you reduce that 
leveraging of resources.
    We are also opposed to the decrease in the funding for the 
Federal Geographic Data Committee. FGDC is a USGS office that 
is responsible for Federal coordination. As you mentioned 
before, Mr. Chairman, the need for better coordination was also 
identified by this Subcommittee in a 2009 hearing on a 
bipartisan basis, as well as in a recent U.S. GAO report.
    Perhaps most troubling as far as USGS trends are concerned 
has been its retrenchment from the utilization of the private 
sector. The data that we have shows that USGS is not even 
coming close to meeting the instructions of Congress that was 
established in the Fiscal Year 1996 Appropriations Act for 
using the private sector.
    On the bright side, we are pleased that the budget includes 
the request of 48 million to support current and future 
Landsat. Landsat does not compete with the private sector and 
is an appropriate government investment. As you can see from 
the slides that I have, we have shown both in your district, 
Mr. Lamborn, and in your district, Mr. Holt, how Landsat is a 
useful tool in doing change detection analysis, where you can 
see where growth, development, change to impervious surface can 
be monitored over time so that appropriate planning and smart, 
intelligent land use and development can occur.
    Geospatial data contributes to national priorities and 
economic development, resource management, environmental 
protection, infrastructure, construction and maintenance, 
homeland security, and a variety of other needs and 
applications.
    USGS was once the world leader in this field. We don't 
believe that is the case any longer. We look forward to working 
with the Subcommittee to reform USGS's mapping and geospatial 
activities so we can once again be that national and 
international leader. Thank you again for the opportunity.
    [The prepared statement of Mr. Palatiello follows:]

       Statement of John M. Palatiello, Executive Director, MAPPS

    Mr. Chairman, members of the Subcommittee, thank you for the 
opportunity to present our views on the priorities, mission and budget 
proposal for the U.S. Geological Survey. MAPPS (www.mapps.org) is a 
national association of private sector geospatial firms. Our 180+ 
member firms span the entire spectrum of the geospatial community, 
including satellite and airborne remote sensing, surveying, 
photogrammetry, aerial photography, LIDAR, hydrography, bathymetry, 
charting, aerial and satellite image processing, GPS, and GIS data 
collection and conversion services and companies that provide hardware, 
software, products and services to the geospatial profession in the 
United States and other firms from around the world. A significant 
number of our member firms are prime contractors or subcontractors to 
USGS and other federal agencies, and to the state and local governments 
that receive grant monies from USGS.
    MAPPS believes there is a critical need to refocus the mission and 
priorities of the USGS, and to align its budget with this new 
direction. The USGS operates primarily under authorization provided by 
the Act of March 3, 1879 (codified in 43 U.S.C. 31 et seq.). It has 
been decades since Congress last enacted major legislation affecting 
one of the original and core missions of the USGS--the surveying and 
mapping of the United States. As a result, surveying and mapping has 
proliferated among more than 40 federal agencies, resulting in 
duplication, a lack of coordination, gaps in coverage and the absence 
of a strategic approach to providing the basic geographic information 
needed in the 21st century for scientific research, as well as 
practical applications that contribute to the economic health, quality 
of life and safety and security of our Nation. The need for better 
coordination of Federal surveying and mapping activities has been well 
documented by previous Congressional hearings, including one by this 
Subcommittee in 2009, GAO reports, National Academy of Sciences 
studies, and investigations by the National Academy of Public 
Administration, OMB and other entities.
    The National Spatial Data Infrastructure (NSDI), established by 
President Clinton in Executive Order 12906 on April 11, 1994, and 
amended and reaffirmed by President Bush in Executive Order 13286 on 
March 5, 2003, provides a framework for the geographic information 
America needs today. However, this priority is not reflected in the 
USGS budget.
    The National Map is the key USGS component of the NSDI. We are 
surprised and deeply disappointed that funding for this activity, and 
the partnerships to facilitate this activity, is proposed to be cut in 
the President's FY 2012 budget. I call to your attention the 
extraordinarily candid comment on page E-15 of the USGS ``Green Book'' 
FY 2012 Budget Justification:
        The National Map Partnerships (-$3,500,000/-4 FTE)
        The USGS proposes to reduce the funding for the Partnership 
        Implementation component of the National Map by $3.5 million 
        which is currently funded at $13.9 million. The proposed 
        reduction eliminates all funds used to specifically leverage 
        with Federal, State and local agencies to acquire new data.

        The proposed decrease would eliminate liaison positions 
        responsible for partnerships in 13 States. These positions 
        organize the agreements through which the USGS leverages its 
        resources with those of State and local cooperators. They 
        routinely provide coordination among Federal geospatial 
        resources and those of State and local governments. Beyond 
        these immediate outcomes, the reduction would result in reduced 
        work for America's geospatial industry, which benefits by 
        fulfilling contracts for projects that result from agreements 
        the NGP makes with its cooperators.
    Mr. Chairman, this is the last place we should be cutting the USGS 
budget. A reduction in partnerships will result in more duplication, 
less coordination, less leveraging of scarce resources, and increased 
unemployment in the private sector. It goes exactly in the opposite 
direction of what this Subcommittee, on a bipartisan basis, concluded 
was necessary in its 2009 hearing and the recommendations of numerous 
studies, including the National Research Council/National Academy of 
Sciences report National Spatial Data infrastructure Partnership 
Programs (2001). According to the USGS's own analysis, for every $1 in 
funds appropriated to USGS for NSDI framework data, more than $11 in 
partnership dollars is leveraged. That is a return on investment that 
will be lost as partnerships are reduced. This is a penny wise and 
pound foolish reduction.
    Moreover, the FY 2012 budget request decreases funding for the 
Federal Geographic Data Committee (FGDC) by $200,000. Last week, the 
GAO issued a report, Opportunities to Reduce Potential Duplication in 
Government Programs, Save Tax Dollars, and Enhance Revenue. While this 
report did not discuss duplication in Federal geospatial activities, 
previous studies have done so. GAO qualified its report by noting it 
did not provide an exhaustive or comprehensive list of Federal 
activities prone to duplication, but if it had, geospatial would be 
near the top of such a list. This point was also identified by this 
Subcommittee in its 2009 hearing, as well as in hearings in 2003 and 
2004 by a Subcommittee of the House Committee on Oversight and 
Government Reform and the 2004 GAO report, Geospatial Information: 
Better Coordination Needed to Identify and Reduce Duplicative 
Investments.
    Mr. Chairman, I regret to report that since the Subcommittee held 
its hearing in July of 2009, the Steering Committee of the Federal 
Geographic Data Committee (FGDC) has not met. In fact, the FGDC 
Steering Committee, chaired by Secretary Salazar, has not met since the 
Obama Administration took office in January of 2009. The last meeting 
of the designated senior career or political officials of the 
government was in the final days of the Bush Administration. It is an 
unfortunate neglect of leadership and responsibility. We urge the 
Subcommittee to reinforce the need for coordination, partnerships, and 
a clear definition of roles and responsibilities so that tax dollars 
are not wasted, effort is not duplicated, and our economy is not 
stifled.
    Perhaps the most troubling trend in USGS has been its retrenchment 
from utilization of the private sector. In FY10, the appropriated 
amount from Congress for USGS National Geospatial Program was $70 
million. However, only $5 million of the $70 million went to contract 
via the Geospatial Products and Services Contracts (GPSC). That is only 
7% going to contract for data and related services. This is a reversal 
of a direction from Congress that USGS had previously implemented. In 
House Report 104-173, to accompany H.R. 1977 Department of the Interior 
and Related Agencies Appropriations Act, 1996, the Appropriations 
Committee instructed:
        ``The Committee expects the Survey to continue to increase its 
        contracting of map and digital data production, with the goal 
        of no less than 50 percent contracting by the end of fiscal 
        year 1997 and no less than 60 percent contracting by the end of 
        fiscal year 1999. The survey should not be competing with the 
        private sector for map production contracts. When services of 
        equal quality and cost are available from the private sector, 
        the Survey should use the private sector.''
    Another USGS activity that has long upset MAPPS members is the 
Civil Applications Committee (CAC) (p I-36). The CAC is an interagency 
committee, chaired by USGS, and housed in a secure facility at the USGS 
headquarters in Reston, VA, that facilitates civil agency use of 
classified imagery and other data, officially known as National 
Technical Means (NTM) for ``resource management, environmental, 
climate, natural disaster, and remote sensing applications.'' This 
secret activity often duplicates and competes with the private sector. 
While the policy prescribes that NTM data is only to be used when 
commercially provided data does not exist, we have seen examples where 
the policy has not been followed, and the private sector has not been 
utilized. Also, there is no transparency to this activity and the 
private sector is often unaware of the CAC's facilitation of the use of 
NTM when commercial solutions were indeed available. It should be noted 
that a number of MAPPS member firms work in GEOINT, or geospatial 
intelligence and have the cleared personnel and secure facilities to 
support classified data. We urge the Subcommittee's oversight of the 
CAC, a reduction in its funding, and stronger enforcement of policies 
and procedures to prevent government competition with and duplication 
of the private sector.
    On the bright side, we are pleased the budget request includes an 
increase, or reallocation, of $48 million to support the current and 
future mission of the National Land Imaging Program, principally 
through LANDSAT. The National Land Imaging Program includes funding for 
current satellites (LANDSAT 5 and 7), the LANDSAT Data Continuity 
Mission (LANDSAT 8), scheduled to launch in December 2012, and the 
development of LANDSAT 9 and 10, through a continuous program to ensure 
data continuity in the future. The moderate resolution data provided by 
LANDSAT does not compete with the private sector and is an appropriate 
government investment. It provides for data that is primarily used in 
research and scientific applications, much of it funded by the 
government, which compliments higher resolution satellite and airborne 
capabilities available from the private sector. This funding by the 
Obama Administration continues implementation of the ``Future of Land 
Imaging'' program initiated in the Bush Administration. We support this 
bipartisan program.
    Mr. Chairman, geospatial data, products, technology and services 
enhance and contribute to national priorities in economic development, 
resource management, environmental protection, infrastructure, 
construction and maintenance, homeland security and a variety of other 
national needs and applications. The USGS was once the envy of the word 
for its leadership in this field. I have pleaded with previous USGS 
leaders to ``lead, follow or get out of the way''. In the Committee's 
Oversight Plan for the 112th Congress, this Subcommittee reported:
        Federal Mapping Programs--The federal government spends 
        billions each year on new geospatial data--spending which is 
        frequently duplicative and uncoordinated. During hearings last 
        year, witnesses made clear that multiple Administrations have 
        exerted little control, central oversight or effective 
        management. The Subcommittee intends to examine this issue and 
        may consider legislation to consolidate and streamline the 
        geospatial programs to reduce waste and duplication. In 
        addition, the Subcommittee intends to conduct oversight of 
        federal agencies and how they track and monitor their land 
        management responsibilities and purposes.
    We look forward to working with the Subcommittee on this important 
and long-overdue review and reform of USGS's mapping and geospatial 
activities. It is time to bring USGS into the 21st Century and align 
its programs and budget priorities to America's contemporary and future 
needs to provide the spatial data infrastructure necessary for economic 
growth, sound resource management, solid science, and proper 
environmental stewardship.
    USGS should be focused on coordination; assisting with applying 
geospatial data to our Nation's challenges; encouraging economic 
development, private sector job creation and export promotion; driving 
a research agenda that is responsive to the private sector's needs; 
working to assure a geospatial workforce that will meet the demands of 
the nation; and contracting with the private sector and partnering with 
other government entities to build and then maintain the NSDI. We 
believe this is where USGS's budget priorities should be placed and we 
are committed to working with you and the Administration to build a 
stronger USGS that once again lead's the Federal government's 
geographic information activities.
                                 ______
                                 
    Mr. Lamborn. Thank you for your testimony. Dr. Price, you 
may begin.

    STATEMENT OF DR. JONATHAN G. PRICE, STATE GEOLOGIST AND 
  DIRECTOR, NEVADA BUREAU OF MINES AND GEOLOGY, UNIVERSITY OF 
   NEVADA, RENO, TESTIFYING ON BEHALF OF THE ASSOCIATION OF 
                   AMERICAN STATE GEOLOGISTS

    Dr. Price. Thank you for this opportunity to comment on the 
value of USGS programs. The President's budget would devastate 
many of the most successful and effective programs run by the 
USGS. These are programs that stimulate economic development, 
save lives and property from natural disasters, and protect the 
environment and public health. Cutting these programs would 
cost the government money through loss of general revenue that 
is created from the economic stimulation that these programs 
provide.
    These are also Federal programs that directly benefit from 
collaboration with experts outside the Federal Government. 
Through competitive grants, which would be eliminated or 
reduced in the President's budget, the USGS is engaging the 
nation's best and brightest scientists and local area experts 
in their mission-oriented work.
    The foremost of concern to our Association of American 
State Geologists is the national cooperative geologic mapping 
program. The President's budget proposes cutting this by 10 
percent, but disproportionately cuts the cooperative components 
with states and universities, which bring non-Federal matching 
dollars to the projects. We believe that this program should 
not be cut at all. Large parts of the United States do not have 
modern detailed geologic maps.
    Geologic mapping at the scale and overall coverage done by 
the USGS and the State Geological Surveys is clearly a role for 
government because the public benefits in many ways, and the 
private sector must limit its work to small areas of immediate 
interest to their businesses. Geologic mapping generally 
engages the use of private sector base mapping efforts, but 
must rely on the knowledge of geologists at government agencies 
and universities to build the geological history and four-
dimensional framework of an area.
    A cost-benefit analysis calculated the value of geologic 
maps to be 25 to 39 times the cost of the mapping. Therefore, a 
program of 28 million has a potential to generate $700 million 
to $1.2 billion in value.
    The Colorado State geologist, Dr. Vince Matthews, has 
documented some recent successes in economic development and 
increased State and Federal revenue through geologic mapping. 
Mapping in the San Juan Basin provided industry and regulators 
with sound science on how to most efficiently and safely 
develop cold-bed methane, which currently accounts for 
approximately 40 percent of Colorado's natural gas production.
    The New Jersey State geologist, Dr. Karl Muessig, noted 
that geologic mapping guided the drill testing for a new 
underground explosive testing facility at the Picatinny 
Arsenal. It resulted in drilling into competent crystal and 
rocks, compared to the initial fractured rock target, saving 
the Army the cost of extra exploration and drilling, and 
millions of dollars for a possible failed facility.
    The President's budget proposes elimination of the national 
geological and geophysical data preservation program. These 
data and samples are used in exploration for domestic mineral 
and energy resources, including geothermal and wind, 
groundwater protection, and investigation of the potential for 
carbon sequestration in geological formations. The program 
should grow, not suffer elimination.
    In making the case for support of the energy and minerals 
program of the USGS, please refer to the four graphs at the end 
of my written testimony. These graphs use critical data 
collected and reported by the USGS. Only the USGS compiles the 
vast amount of mineral resource data used by our decision 
makers.
    The USGS has a vital role in documenting domestic 
production and reserves, and in assessing the likelihood of 
future discoveries. Recent external reports by the National 
Academy of Sciences and by the American Physical Society have 
documented the importance of continuing to collect and analyze 
mineral resource data for both the economic health and national 
security of America.
    We believe neither the minerals program nor the energy 
program should be cut. There are several other USGS programs 
that we believe are vital to the Nation and should not be 
reduced. We strongly support increased funding of the USGS 
hazards programs, including earthquakes, volcanos, and 
landslides. Geologic mapping is a key to reducing risk from 
these hazards, which brings me back to our key concern, funding 
for the geologic mapping program.
    It and the comparably important data preservation program 
provide the basis for other USGS activities. They are integral 
to economic development, reducing risk from natural hazards, 
and stewardship of the environment. Thank you.
    [The prepared statement of Dr. Price follows:]

 Statement of Jonathan G. Price, State Geologist and Director, Nevada 
 Bureau of Mines and Geology, Association of American State Geologists

    My name is Jonathan G. Price. I am the Nevada State Geologist and 
Director of the Nevada Bureau of Mines and Geology, which is the state 
geological survey and a research and public service unit of the Nevada 
System of Higher Education at the University of Nevada, Reno. As past 
president of the Association of American State Geologists, I am 
testifying today on behalf of that organization, which represents the 
geological surveys in the 50 states and Puerto Rico.
    Thank you for this opportunity to comment on the budget of the U.S. 
Geological Survey (USGS) and the value of their programs.
    The President's budget would devastate many of the most successful 
and effective programs run by the USGS. These are programs that 
stimulate economic development, save lives and property from natural 
disasters, and protect the environment and public health. Cutting these 
programs would cost the government money through loss of general 
revenue that is created from the economic stimulation that these 
programs provide.
    These are also federal programs that directly benefit from 
collaboration with experts outside the federal government. Through 
competitive grants, which would be eliminated or reduced in the 
President's budget, the USGS is engaging some of the Nation's best and 
brightest scientists and local-area experts in their mission-oriented 
work.
    Foremost of concern to the Association of American State Geologists 
is the National Cooperative Geologic Mapping Program (NCGMP), a 
subactivity within the Core Science Systems Activity, funded at $28.2 
million in FY 2010. The President's budget proposes cutting this by 10% 
in FY 2012, but disproportionately cuts the cooperative components with 
states and universities, which bring non-federal matching dollars to 
the projects, by 14%, while cutting the federal component by 8%. We 
believe that this program should not be cut at all in FY 2012. Given 
its proven record in stimulating economic development and generation of 
tax revenues for federal, state, and local governments, the program 
should grow to its fully authorized level of $64 million per year in 
the upcoming years. Large parts of the United States do not have 
modern, detailed geologic maps. The program locates, characterizes, and 
assembles the vital information upon which economic decisions involving 
land and water are made. Virtually all mineral, energy, water, 
industrial construction, public works, and urban development projects 
require a geologic map.
    Geologic mapping at the scale and overall coverage done by the USGS 
and the state geological surveys is clearly a role for government, 
because the public benefits in many ways, and the private sector must 
limit its work to small areas of immediate interest to their 
businesses. Geologic mapping generally engages the use of private-
sector base-mapping efforts (such as aerial photography and topographic 
mapping, nowadays using light detection and ranging, LiDAR) but must 
rely on the knowledge of geologists at government agencies and 
universities to build the geological history and four-dimensional 
framework of an area.
    Cost-benefit studies show that the existence of a modern geologic 
map saves developers and engineers about $50,000 for every project 
occurring within a standard mapping area of 56 square miles. Typically, 
many projects utilize a single map, multiplying these cost savings many 
times over. The maps, and data collected to make them, are of great 
value because society can use them in perpetuity. A cost-benefit 
analysis done on a state fortunate to have completed modern geologic 
map coverage calculated the value of the geologic maps to be 25 to 39 
times the cost of the mapping. Therefore a FY 2012 program of $28 
million has the potential to generate $700 million to $1.1 billion in 
value. Also, through this program, 850 students at 140 universities 
have been trained in the essential skills of geologic mapping, skills 
that are much in demand in the United States.
    The Colorado State Geologist, Dr. Vince Matthews, has documented 
some recent successes in economic development (and increased state and 
federal revenue) through geologic mapping. Geologic mapping in 
Archuleta and La Plata Counties along the northern outcrop of the San 
Juan Basin provided industry and regulators with sound science on how 
to most efficiently and safely develop coalbed methane, which currently 
accounts for approximately 40% of Colorado's natural gas production. 
Geologic mapping by the Colorado Geological Survey is a key component 
of an $11 million research project on carbon capture and storage 
centered in northwestern Colorado. Partners include the Colorado 
Geological Survey, Tri State Generation and Transmission, Shell 
Production Company, Schlumberger Carbon Services, and other state 
geological surveys and universities.
    The New Jersey State Geologist, Dr. Karl Muessig, provided the 
following example of how geologic mapping saves the federal government 
money. Mapping data gathered under the NCGMP guided the drill testing 
at the Picatinny Arsenal for a new underground explosives testing 
facility. It resulted in drilling into competent crystalline rocks 
(compared to the initial fractured rock target), saving the Army the 
cost of extra exploration drilling and millions of dollars for a 
possible failed facility or for additional grouting.
    Geologic maps and related reports on applied research are excellent 
incentives for economic development. As another example, geologic 
mapping and related interpretation of the regional geological 
structures were an integral part of the discovery of the Carlin gold 
deposit in 1961. The geologic mapping was done by USGS geologists in a 
cooperative program with the Nevada Bureau of Mines and Geology, but 
the discovery was made through the additional investment by the private 
sector for drilling and assaying. In the last 35 years, mining 
companies in Nevada have produced tens of billions of dollars' worth of 
gold and silver from deposits of this type and have directly and 
indirectly provided tens of thousands high-paying jobs. There is still 
much mineral wealth to be found in the United States. In 1988, I 
estimated that the undiscovered mineral resources in Nevada were likely 
to have a value in the range of $120 billion to $1.2 trillion, and 
those figures still provide a reasonable estimate of the untapped 
mineral wealth of that one state. Nevada's gold production of over 167 
million troy ounces since the Carlin deposit began operation in 1965 
would have a value of over $230 billion at current prices.
    Another reason why the STATEMAP and EDMAP components of the 
National Cooperative Geological Mapping Program should be increased, 
rather than cut, is the fact that these components require that non-
federal dollars be added to the federal investments, thereby at least 
doubling the overall effort. In addition, each state engages 
stakeholders (including federal land managers, resource and urban 
development industries, local governments, water districts, other state 
agencies, and conservation groups) in setting priorities for new 
geologic maps, thereby assuring that the highest priority areas are 
covered as soon as possible.
    The President's budget proposes elimination of the National 
Geological and Geophysical Data Preservation Program (NGGDPP), also a 
subactivity within the Core Science Systems Activity, funded at $1.0 
million in FY 2010. This is another cooperative program with states, 
which double the federal investment. The 2002 National Academy of 
Sciences report on Geoscience Data and Collections--National Resources 
in Peril made the case for preserving these irreplaceable data and 
physical samples and led to Congressional authorization of this program 
at $30 million per year within the Energy Policy Act of 2005. We have 
seen uses for these data and samples in exploration for domestic 
mineral and energy resources (including renewable geothermal energy 
sources), groundwater protection, and investigation of the potential 
for carbon storage in geological formations. The program should grow, 
not suffer elimination.
    An example of how both data preservation and geologic mapping 
create jobs in the private sector and revenues for the federal 
government comes from New Jersey. Coastal mapping supported by NCGMP 
and offshore mapping by the Department of Interior, along with drilling 
data preserved through the NGGDPP, have provided baseline data for 
siting proposed offshore wind energy facilities. This is generating 
jobs in the alternative energy industry and future federal leasing 
revenues.
    Many states have considerable amounts of public land managed by the 
federal government. In contrast to Canada and Australia, which help 
stimulate exploration for natural resources and eliminate unnecessary 
environmental degradation that can occur from duplication of efforts on 
the ground, the United States has no significant program to preserve 
information gathered from leases or mining claims on public lands, 
other than the National Geological and Geophysical Data Preservation 
Program. We have experienced many cycles of exploration, when commodity 
prices rise and fall. Preserving data from past exploration clearly 
stimulates private investment and economic development when commodities 
are in high demand.
    In making the case for support of the Energy and Minerals Programs 
of the USGS, please refer to four graphs at the end of this testimony. 
The continuing historical rise in demand for copper, an example of a 
mineral commodity needed for modern society, is documented in Figure 1. 
To meet global demand, the world needs to mine the equivalent of one 
huge copper deposit each year and find a new one to replace the 
depleted reserves. Although conservation and recycling can lessen the 
demand for newly mined copper, the increases in both global population 
and average standard of living require more mining. Domestic resources 
for most mineral commodities occur in the United States, where they are 
mined using the world's best practices for environmental stewardship 
and health and safety for workers and the public. The USGS has a vital 
role in documenting domestic production and reserves and in assessing 
the likelihood of future discoveries that will add to the mineral and 
energy resources of our country.
    Global iron-ore production and, by that measure, the rise of China 
as a major economic power, is shown in Figure 2. The dominance of China 
as a producer of mineral and energy commodities today is illustrated in 
Figures 3 and 4. These graphs use critical data collected and reported 
by the USGS. No other agency, foreign government, or private company 
does this. Although foreign governments, domestic state governments, 
and private companies collaborate with the USGS in the data collection, 
only the USGS compiles the vast amount of mineral-resource data used by 
our decision makers. China's dominance in the minerals arena, as 
documented by the USGS data, presents challenges, threats, and 
opportunities for the United States.
    Within the USGS's Energy, Minerals, and Environmental Health 
Activity, the Mineral Resources Subactivity would be cut 18% below the 
FY 2010 level, from $53.8 million to $44.2 million in FY 2012. The 
Mineral Resources External Research Program (only $250,000 in FY 2010) 
would be eliminated, thereby losing collaboration with subject experts 
that can fill gaps in expertise within the USGS. The Minerals 
Information Function, considered to be an essential government function 
in two 2008 National Academy of Sciences reports (titled Minerals, 
Critical Minerals, and the U.S. Economy, and Managing Materials for a 
Twenty-first Century Military) and in a 2011 report by the American 
Physical Society (titled Energy Critical Elements: Securing Materials 
for Emerging Technologies), would suffer a 17% cut. These recent 
external reports have documented the importance of continuing to 
collect and analyze these data for both the economic health and 
national security of America. We believe these are programs and 
functions that should not be cut.
    The President's budget for the USGS's Energy Resources Subactivity 
would be approximately the same as last year (increasing from $27.2 
million in FY 2010 to $27.4 million in FY 2012), but funding for the 
State Coop to maintain and improve the National Coal Resources Data 
System would be eliminated. Coal continues to be a major supplier of 
inexpensive electricity for America. Research on new technologies for 
reducing carbon dioxide emissions, storing carbon dioxide underground, 
and adapting to climate changes is needed, because coal and other 
carbon-based energy fuels (including unconventional sources of oil and 
natural gas) are likely to dominate the global energy supplies for many 
years. Whereas the Energy Information Administration in the Department 
of Energy does a good job of collecting statistics on domestic energy 
production, the USGS's role in long-term forecasting of energy supplies 
(including fossil fuels, nuclear fuels, and geothermal resources) is 
unique and necessary for long-term planning. Much of this work is done 
in collaboration with states, and the Association of American State 
Geologists supports this working relationship.
    There are several other USGS programs that we believe are vital to 
the nation and should not be reduced. The President's budget for the 
Earthquake Hazards Program (within the Natural Hazards Activity) calls 
for an 8% overall decrease and a much larger percentage cut to the 
external Earthquake Grants program, which has successfully engaged 
leading scientists and engineers through a peer-reviewed grant process. 
The President's budget would also put on hold progress to build a 
prototype earthquake early warning system. This system would warn 
people within seconds after a major earthquake starts to shake the 
ground, in time for many people to take cover, protect their children, 
and automatically implement electronic safety measures (such as opening 
firehouse doors, slowing trains, and backing up computers). Japan 
already has a functional system in place, but the President's budget 
calls for the United States to stall its efforts. The system that we 
need would surely save lives and facilitate a rapid recovery after the 
inevitable earthquakes that will strike not only California, Alaska, 
Nevada, Hawaii, Oregon, Utah, and Washington, but many other states, 
including ones in the eastern and central parts of the country. The 
Earthquake Hazards Program also needs funding to take advantage of new 
technologies (such as better seismic instrumentation, more geodetic 
measurements, and more use of LiDAR in mapping faults) that are 
improving our abilities to reduce risks from earthquakes.
    The National Science Foundation's EarthScope-US Array experiment, 
which has been deploying seismic instruments across the country, but 
for only 18 months at a given site, has demonstrated how useful a 
robust national seismic network could be. For example, the US Array 
instruments helped to detect a magnitude 3.7 earthquake in the same 
area as, but approximately one year before, the magnitude 6.0 
earthquake that damaged the town of Wells, Nevada on February 21, 2008. 
Unfortunately, the US Array instruments in most western United States 
have been moved eastward in NSF's experiment, and the USGS-supported 
seismic network can no longer detect the small events that might help 
us eventually predict earthquakes or that might be critical for an 
early warning system for many urban areas throughout the country. That 
is, USGS support of a national seismic and geodetic network, with 
collaboration from state and university-based regional networks, is 
vital.
    The Landslide Hazards Subactivity and the Volcano Hazards 
Subactivity of the USGS's Natural Hazards Activity are slated for 4% 
reductions in the President's budget. As indicated in recent USGS and 
National Academy of Sciences studies, landslides (and related land-
surface movements such as debris flows, shrink-swell soils, sinkholes, 
and subsidence) cause billions of dollars of damage per year, yet not 
enough has been done to map and understand the hazards, a key step to 
risk reduction. The Association of American State Geologists strongly 
supports increased funding of USGS hazards programs, including 
earthquakes, volcanoes, and landslides. Geologic mapping is a key to 
reducing risks from these hazards, which brings me back to our key 
concern--funding for the National Cooperative Geologic Mapping Program. 
It and the comparably important National Geological and Geophysical 
Data Preservation Program, are housed in the USGS's Core Science 
Systems Activity. They both provide the basis for other USGS 
activities. They are integral to economic development through work that 
stimulates the responsible development of energy, mineral, and water 
resources; reduces risks from natural hazards; and guides our 
stewardship of the environment.
    Thank you, again, for this opportunity to comment on the value of 
USGS programs.

[GRAPHIC] [TIFF OMITTED] T5119.001


Figure 1. Global production of copper compared with world 
population and per capita consumption (production divided by 
population), a measure of average standard of living, from 1900 to 2010 
(mineral production data from USGS). Demand for nearly every mineral 
and energy commodity is high, in part because of increasing world 
population and in part because of increasing standards of living in 
many parts of the world. While world population increased four-fold 
from 1900 to 2010, per capita copper consumption increased eight-fold, 
such that annual copper production in 2010 was 33 times more than in 
1900. Global copper production in 2010 was a record high, at 16.2 
million metric tons, approximately the same as the cumulative 
historical production, since 1906, from the Bingham Canyon copper mine 
in Utah. Copper is used primarily to conduct electricity.

[GRAPHIC] [TIFF OMITTED] T5119.002


Figure 2. Iron-ore production by country (in millions of metric 
tons) from 1929 to 2010 (data from USGS). Global annual iron-ore 
production also reached an all- time high in 2010. Iron is used 
primarily in steel. Most of the iron-ore production from Australia and 
Brazil has fed the steel industry in China.

[GRAPHIC] [TIFF OMITTED] T5119.003


Figure 3. Percentage of global population by country. With 
approximately 20% of the world's population, China produces well over 
20% of the world's supply of many mineral and energy commodities, some 
of which are highlighted on this graph (population data from CIA, coal 
production data from EIA, other mineral commodity data from USGS; DRC = 
Democratic Republic of Congo).

[GRAPHIC] [TIFF OMITTED] T5119.004


Figure 4. Average price in 2010 versus abundance of various 
chemical elements (data are mostly from USGS Mineral Commodity 
Summaries 2011 for prices and from the 85th edition of the CRC Handbook 
of Chemistry and Physics for abundances). The dashed lines illustrate 
the general trend of increasing price for rarer elements. In 2010, 
China was the leading producer of 25 (circled) of the 46 mineral 
commodities plotted and among the top three producers of another five 
(underlined). These include silver (Ag), aluminum (Al) metal and ore, 
arsenic (As), gold (Au), barium (Ba), beryllium (Be), cadmium (Cd), 
carbon (C, as coal), cobalt (Co), copper (Cu), iron (Fe) as both ore 
and steel, gallium (Ga), germanium (Ge), mercury (Hg), indium (In), 
lithium (Li), manganese (Mn), molybdenum (Mo), phosphorus (P), lead 
(Pb), scandium (Sc), tin (Sn), vanadium (V), tungsten (W), zinc (Zn), 
and the rare earth elements, with dysprosium (Dy), lanthanum (La), 
neodymium (Nd), and samarium (Sm) shown on this graph. The United 
States was the top producer of two, beryllium (Be) and helium (He), and 
among the top three producing countries for 13 commodities. Russia was 
the top producer of three, industrial diamonds (another form of carbon, 
C), nickel (Ni), and palladium (Pd), and among the top three for 12. 
Australia was the top producer of two, aluminum (Al) ore and titanium 
(Ti), and among the top three for 10 mineral commodities. Other global 
leaders include Chile for copper (Cu), lithium (Li), and rhenium (Re); 
South Africa for chromium (Cr) and platinum (Pt); Democratic Republic 
of Congo for cobalt (Co); Mexico for silver (Ag); Turkey for boron (B); 
Brazil for niobium (Nb); Canada for potassium (K); Kazakhstan for 
uranium (U); and Japan, from its smelting of imported copper ores, for 
selenium (Se) and Tellurium (Te). Thallium (Tl) is a byproduct of 
copper, zinc, and lead processing.
                                 ______
                                 
    Mr. Lamborn. Thank you for your testimony. Dr. Schiffries.

 STATEMENT OF DR. CRAIG M. SCHIFFRIES, DIRECTOR FOR GEOSCIENCE 
             POLICY, GEOLOGICAL SOCIETY OF AMERICA

    Dr. Schiffries. Mr. Chairman, Mr. Holt, and Members of the 
Committee, thank you very much for the opportunity to testify 
today about the U.S. Geological Survey. My name is Craig 
Schiffries, and I serve as Director for Geoscience Policy at 
the Geological Society of America.
    Quite simply, the USGS is one of the nation's premiere 
science agencies. It addresses many of society's greatest 
challenges, including mineral and energy resources, natural 
hazards, and water resources. The USGS benefits every American 
every day, or at least those of us who use water, energy, 
minerals, or maps.
    The devastating earthquake in Haiti on January 12th, 2010, 
that killed more than 200,000 people, and the small volcanic 
eruptions in Iceland that disrupted global air travel in April 
2010 emphatically demonstrate the value of robust natural 
hazards monitoring and warning systems, and symbolize the need 
for increased Federal funding for the USGS.
    Nevertheless, funding for the USGS has stagnated in real 
dollars for more than a decade, as shown on this figure. The 
USGS budget would be even weaker if Congress had not repeatedly 
restored proposed budget cuts during this time. We urge 
Congress to again restore proposed budget cuts for the USGS.
    The broad rationale is that science and technology are the 
engines of economic prosperity and national security. Federal 
investments pay substantial dividends. According to the 
National Academies' report, ``Rising Above the Gathering 
Storm,'' economic studies have shown that as much as 85 percent 
of the measured growth in U.S. income per capita was due to 
technological change. And, of course, technological change is 
driven by science and technology.
    In 2010, the National Academies issued an updated report, 
which says, quote, ``It would be impossible not to recognize 
the great difficulty of carrying out the gathering storm 
recommendations, such as doubling the research budgets, in 
today's fiscal environments. However, it is emphasized that 
actions such as doubling the research budget are investments 
that need to be made if the Nation is to maintain the economic 
growth to provide for its citizens healthcare, Social Security, 
national security, and more.''
    One seemingly relevant analogy is that a non-solution to 
making overweight aircraft flight worthy is to remove an 
engine. Likewise, the National Commission on Fiscal 
Responsibility and Reform, headed by Erskine Bowles and Alan 
Simpson said, ``Cut and invest to promote economic growth and 
keep America competitive. We should cut red tape in 
unproductive government spending that hinders job creation and 
growth. But at the same time, we must invest in education, 
infrastructure, and high value research and development to help 
our economy grow, keep us globally competitive, and make it 
easier for businesses to create jobs.''
    Earth science is a critical component of the overall 
science and technology enterprise, and growing support for 
earth science in general and the U.S. Geological Survey in 
particular is required to stimulate investments that fuel the 
economy, provide security, and enhance the quality of life.
    I would like to call your attention to the combination of 
two recent developments that have advanced both science and 
scientific integrity at the Department of the Interior. 
Secretary Salazar issued a new five-year strategic plan that 
for the first time elevates science to one of five mission 
areas for the entire department.
    The Interior Department also adopted a comprehensive 
scientific integrity policy that sets clear expectations for 
all employees, including political appointees, public affairs 
officers, and scientists.
    GSA is pleased that science has been elevated to a mission 
area in the Interior Department's strategic plan, and hopes 
that this development will guide investments and the allocation 
of resources that are reflected in the budget for the U.S. 
Geological Survey. It is critically important for Congress to 
restore proposed cuts in the USGS budget request. I would like 
to focus on just two examples.
    Natural hazards such as earthquakes, tsunamis, volcanic 
eruptions, floods, droughts, wild fires, and hurricanes remain 
a major cause of fatalities and economic losses worldwide. An 
improved scientific understanding of geologic hazards will 
reduce future losses through better forecast of their 
occurrence and magnitude.
    The recent volcanic eruption in Iceland and the earthquake 
in Haiti emphatically demonstrate the value of robust natural 
hazards monitoring and the need to provide funds to the USGS to 
modernize, expand, and maintain these networks. Mineral and 
energy resources are critical to the functioning of society and 
to national security, and have positive impacts on local, 
national, and international economies and the quality of life.
    But energy and minerals are critically linked in important 
ways. For example, widespread deployment of clean energy 
technologies can reduce dependence on foreign oil, reduce 
greenhouse gas emissions, and mitigate climate change. But many 
emerging technologies, such as wind turbines, solar cells, and 
electric vehicles depend on rare earth elements and other 
scarce elements that currently lack diversified sources of 
supply. A renewed Federal commitment to funding innovative 
research, information, and education on minerals is needed to 
address these issues.
    In conclusion, the Geological Society of America urges 
Congress to restore the proposed cuts in the USGS budget. Thank 
you very much, Mr. Chairman.
    [The prepared statement of Dr. Schiffries follows:]

 Statement of Dr. Craig M. Schiffries, Director for Geoscience Policy, 
                     Geological Society of America

Summary
    The U.S. Geological Survey (USGS) is one of the nation's premier 
science agencies. It addresses many of society's greatest challenges, 
including mineral and energy resources, natural hazards, climate 
change, and water resources. The USGS benefits every American every 
day. The devastating earthquake in Haiti on January 12, 2010 that 
killed more than 200,000 people and the small volcanic eruptions in 
Iceland that disrupted global air travel in April 2010 emphatically 
demonstrate the value of robust natural hazards monitoring and warning 
systems and the need for increased federal funding for the USGS. 
Nevertheless, funding for the USGS has stagnated in real dollars for 
more than a decade (Figure 1). The USGS budget would be even weaker if 
Congress had not repeatedly restored proposed budget cuts during that 
time.
    The Geological Society of America (GSA) supports strong and growing 
budgets for the U.S. Geological Survey. Increased federal funding for 
Earth science is needed to stimulate innovations that fuel the economy, 
provide national security, and enhance the quality of life. The USGS 
has a unique combination of assets that enables it to address 
interdisciplinary research challenges that are beyond the capabilities 
of most other organizations. GSA urges Congress to restore proposed 
cuts in USGS programs in the President's budget request for fiscal year 
2012.
    The Geological Society of America, founded in 1888, is a scientific 
society with over 24,000 members from academia, government, and 
industry in all 50 states and more than 90 countries. Through its 
meetings, publications, and programs, GSA enhances the professional 
growth of its members and promotes the geosciences in the service of 
humankind. GSA encourages cooperative research among earth, life, 
planetary, and social scientists, fosters public dialogue on geoscience 
issues, and supports all levels of earth science education.

Rationale
    Science and technology are engines of economic prosperity, 
environmental quality, and national security. Federal investments in 
research pay substantial dividends. According to the National 
Academies' report Rising Above the Gathering Storm (2007), ``Economic 
studies conducted even before the information-technology revolution 
have shown that as much as 85% of measured growth in US income per 
capita was due to technological change.'' In 2010, the National 
Academies issued an updated report, Above the Gathering Storm, 
Revisited, which says:
        It would be impossible not to recognize the great difficulty of 
        carrying out the Gathering Storm recommendations, such as 
        doubling the research budget, in today's fiscal environment . . 
        . with worthy demand after worthy demand confronting budgetary 
        realities. However, it is emphasized that actions such as 
        doubling the research budget are investments that will need to 
        be made if the nation is to maintain the economic strength to 
        provide for its citizens healthcare, social security, national 
        security, and more. One seemingly relevant analogy is that a 
        non-solution to making an over-weight aircraft flight-worthy is 
        to remove an engine.
    Likewise, the National Commission on Fiscal Responsibility and 
Reform, headed by Erskine Bowles and Alan Simpson, said:
        Cut and invest to promote economic growth and keep America 
        competitive. We should cut red tape and unproductive government 
        spending that hinders job creation and growth. At the same 
        time, we must invest in education, infrastructure, and high-
        value research and development to help our economy grow, keep 
        us globally competitive, and make it easier for businesses to 
        create jobs.
    Earth science is a critical component of the overall science and 
technology enterprise. Growing support for Earth science in general and 
the U.S. Geological Survey in particular is required to stimulate 
innovations that fuel the economy, provide security, and enhance the 
quality of life. Earth Science provides knowledge and data essential 
for developing policies, legislation, and regulations regarding land, 
mineral, energy, and water resources at all levels of government.

Advancing Science and Scientific Integrity at the Department of the 
        Interior
    Science and scientific integrity advanced through the combination 
of two recent developments at the U.S. Department of the Interior 
(DOI). Secretary of the Interior Ken Salazar issued a new five-year 
strategic plan that for the first time elevates science to one of five 
mission areas for the entire department. The Interior Department also 
adopted a comprehensive scientific integrity policy that sets clear 
expectations for all employees, including political appointees, public 
affairs officers, and scientists.
    ``These developments are cause for optimism because they emphasize 
the critical importance of science and demand the utmost integrity in 
its conduct and application,'' said Geological Society of America 
President Joaquin Ruiz. ``GSA is pleased with the inclusiveness of the 
[scientific integrity] policy, which covers virtually everyone using 
scientific and scholarly information in relation to the Department of 
the Interior,'' said Ruiz. ``In addition, the policy clarifies and 
documents the ability of federal scientists to serve their professional 
societies on boards and advisory committees. This is extremely 
important, both to the societies who benefit from their expertise, and 
also for the career advancement of scientists working in the federal 
government.''

[GRAPHIC] [TIFF OMITTED] T5119.005

    .epsScience was not included as a mission area in the draft DOI 
strategic plan that was released for public comment in 2009. However, 
science was elevated to a mission area in the final version of the DOI 
strategic Plan. When he announced the final version of the strategic 
plan on 26 January 2011Secretary Salazar said, ``This new strategic 
plan ensures science has its rightful place as a primary source for the 
Interior Department's decision making process.''
    GSA is pleased that science has been elevated to a mission area in 
the Interior Department strategic plan and hopes that this development 
will guide investments and the allocation of resources that are 
reflected in the budget for the U.S. Geological Survey.

Broader Impacts of the Earth Sciences
    It is critically important for Congress to restore proposed cuts in 
the USGS budget request in order to meet challenges posed by human 
interactions with Earth's natural systems and to help sustain these 
natural systems and the economy. Additional investments in the USGS are 
necessary to address such issues as natural hazards, mineral and energy 
resources, water resources, and climate change.
    <bullet>  Natural hazards, such as earthquakes, tsunamis, volcanic 
eruptions, floods, droughts, wildfires, and hurricanes, remain a major 
cause of fatalities and economic losses world-wide. An improved 
scientific understanding of geologic hazards will reduce future losses 
through better forecasts of their occurrence and magnitude. The 
devastating earthquake in Haiti on January 12, 2010 that killed more 
than 200,000 people, the damaging earthquake in New Zealand on February 
21, 2011, and the small eruptions of Eyjafjallajokull volcano in 
Iceland that disrupted global air travel in April 2010 emphatically 
demonstrate the value of robust natural hazards monitoring and warning 
systems and the need for increased federal investments in the USGS.
    <bullet>  Energy and mineral resources are critical to the 
functioning of society and to national security and have positive 
impacts on local, national, and international economies and quality of 
life. These resources are often costly and difficult to find, and new 
generations of geoscientists need the tools and expertise to discover 
them. In addition, management of their extraction, use, and residue 
disposal requires a scientific approach that will maximize the derived 
benefits and minimize the negative effects. Improved scientific 
understanding of these resources will allow for their better management 
and utilization, while at the same time considering economic and 
environmental issues. This is particularly significant because shifting 
resource demands often reframe our knowledge as new research-enabling 
technologies become available. For example, widespread deployment of 
clean energy technologies can reduce greenhouse gas emissions, mitigate 
climate change, and reduce dependence on foreign oil. Many emerging 
technologies--such as wind turbines, solar cells, and electric 
vehicles--depend on rare earth elements and other scarce elements that 
currently lack diversified sources of supply. China accounts for 95 
percent of world production of rare earth elements although it has only 
36 percent of identified world reserves (USGS, 2010). A renewed federal 
commitment to innovative research, information, and education on 
minerals is needed to address these issues.
    <bullet>  The availability and quality of surface water and 
groundwater are vital to the well being of both society and ecosystems. 
Greater scientific understanding of these critical resources--and 
communication of new insights by geoscientists in formats useful to 
decision makers--is necessary to ensure adequate and safe water 
resources for the future.
    <bullet>  Forecasting the outcomes of human interactions with 
Earth's natural systems, including climate change, is limited by an 
incomplete understanding of geologic and environmental processes. 
Improved understanding of these processes in Earth's history can 
increase confidence in the ability to predict future states and enhance 
the prospects for mitigating or reversing adverse impacts to the planet 
and its inhabitants.
    <bullet>  Research in earth science is also fundamental to training 
and educating the next generation of earth science professionals.
    The U.S. Geological Survey should be a component of broader 
initiatives to increase overall public investments in science and 
technology. For example, earth science research should be included in a 
recommendation by the National Academies to ``increase the federal 
investment in long-term basic research by 10% each year over the next 7 
years . . . '' (Rising Above the Gathering Storm, 2007). Likewise, when 
Congress reauthorizes the America COMPETES Act, it should broaden the 
act to include a new title that puts the USGS budget on the same 
doubling track as other key science agencies.

Budget Shortfalls
    President Obama's FY 2012 budget request for the U.S. Geological 
Survey is $1.118 billion, a decrease of $15 million or 1.3 percent 
below the USGS budget request for FY 2011, and an increase of $6 
million or 0.5% above the FY 2010 enacted level.
    Although there is a $6 million increase in the total USGS budget 
request for FY 2012 compared to the FY 2010 enacted level, the FY 2012 
budget request contains significant cuts in many programs that are 
offset by increases in other areas, including a $59.6 million increase 
in a new account for National Land Imaging. The USGS budget request for 
FY 2012 includes $89.1 million in program reductions in long-standing 
programs. The proposed budget cuts would have significant impacts on 
USGS programs. Proposed budget cuts in the FY 2012 USGS budget request 
include -$9.8 million for Biological Information Management and 
Delivery, -$9 6 million for Mineral Resources, -$8.9 million for 
National Water Quality Assessment, -$6.5 million for Cooperative Water 
Program, and -$4.7 million for Earthquake Hazards.
    The USGS budget has been reorganized to reflect the agency's new 
structure. The FY 2012 budget is now organized along the six 
crosscutting themes from the USGS science strategy, Facing Tomorrow's 
Challenges--U.S. Geological Survey Science in the Decade 2007-1017 
(USGS, 2007), rather than the traditional disciplines. The budget 
request also includes a new National Land Imaging account that focuses 
on the Interior Department's role in Landsat. Underfunding of 
uncontrollable cost increases over many years has compromised the 
scientific capacity of the USGS.
    The USGS budget has been nearly stagnant in real dollars since 1996 
(Figure 1). The USGS budget for FY 2010 was below the USGS budget for 
FY 2001 in real dollars. The decline in funding for the USGS during 
this time period would have been greater if Congress had not repeatedly 
restored proposed budget cuts. Federal funding for non-defense R&D has 
increased significantly while funding for the USGS stagnated for more 
than a decade.
    We urge Congress to restore proposed cuts in the USGS budget 
request, to provide full funding for uncontrollable cost increases, and 
to provide new funds to enable the agency to address a growing backlog 
of needs for USGS science and information, accelerate the timetable for 
deployment of critical projects, and undertake new initiatives that 
address new challenges.
    The Geological Society of America is grateful to Congress for its 
leadership in restoring proposed cuts in the USGS budget in increasing 
the budget for the U.S. Geological Survey. We remain grateful to the 
subcommittee for its leadership in providing $143 million in stimulus 
funds for the USGS under the American Recovery and Reinvestment Act of 
2009. Thank you for your thoughtful consideration of our request. For 
additional information or to learn more about the Geological Society of 
America--including GSA Position Statements on water resources, mineral 
and energy resources, natural hazards, and public investment in earth 
science research--please visit www.geosociety.org or contact Dr. Craig 
Schiffries at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f29181919a9b9494809b9781b295979d819d919b97868bdc9d8095dc">[email&#160;protected]</a>
                                 ______
                                 
    Mr. Lamborn. Thank you for your testimony. Thank all of you 
for being here today. We appreciate your coming and sharing 
your knowledge with us. Now for a round of questions, and I 
will begin.
    Dr. Price, in your opinion, what value do the energy and 
mineral programs at the USGS provide to the taxpayer?
    Dr. Price. It is a tremendous amount of value. The programs 
are giving us information that is basic for exploration, for 
new resources. It helps us to figure out how we can most 
environmentally responsibly develop those resources. And all of 
that adds to greater economic development within our country.
    Mr. Lamborn. So if someone were to propose reducing those 
budget amounts in the upcoming budget, you wouldn't be happy 
with that.
    Dr. Price. Not at all. I think it is actually quite a 
stimulus to economic development, and cutting back on that 
funding would in fact be hurting us more than helping us.
    Mr. Lamborn. OK. Thank you. And, Mr. Palatiello, you 
mentioned government duplication in the mapping area. Can you 
be more specific on what can be done to avoid this duplication 
and the expense that goes along with duplication?
    Mr. Palatiello. Mr. Chairman, I----
    Mr. Lamborn. And I would like to say, I approve of what--
and am happy that President Obama in his State of the Union 
address addressed duplication. He was talking about salmon, I 
think, and two different programs. And he used a humorous 
example, but it is unfortunate that we have to, in this time of 
huge debts, pay money for duplicative programs. Please 
continue.
    Mr. Palatiello. You are exactly right, and the President 
did say that salmon in the freshwater are the responsibility of 
the Interior Department, and once it reaches saltwater, it is 
the Commerce Department. And then he said he hears it gets more 
complicated once they are smoked.
    Well, the same thing can be said about mapping. You want a 
topographic map? You go to USGS. You want to add a flood plain? 
You go to FEMA. You want to show the shoreline? You go to NOAA. 
So the same type of stovepiping and lack of coordination that 
the President was talking about with regard to salmon is a 
direct corollary to the same problem we have with regard to 
mapping.
    Now, to the Administration's credit, they have launched 
something called the geospatial platform, which is an attempt 
to build a cloud computing environment for sharing of data. And 
I think that is a very good step in the right direction.
    The problem is the structure, though. When you have 40-plus 
Federal agencies doing a variety of different types of mapping, 
that is a problem.
    Let me add one other point, too, because I don't mean to 
beat on the Administration. And this is a problem that long 
precedes the Obama Administration, as you well know, Mr. 
Chairman. But the problem is right up here on Capitol Hill as 
well. There are over 40 different committees and subcommittees 
of Congress that have jurisdiction over different mapping 
activities.
    So some sort of better coordination, perhaps a 
consolidation, we think, is definitely worth exploring.
    Mr. Lamborn. OK. Thank you. And, Dr. Aster, USGS proposes 
to cut the national volcano early warning system that would 
eliminate a national scale system. Is this an advisable 
proposal?
    Dr. Aster. Thank you, Mr. Chairman. I would say definitely 
not. I mean, we face a very significant threat from volcanos in 
this country. And part of that program was not only to address 
immediate needs, but also to produce a more viable, cost-
effective scientific system for making scientific and public 
hazard advances on volcano studies, which in many ways are more 
complex and somewhat lag behind our understanding of 
earthquakes.
    So I would be a very strong proponent of finding ways to 
push for increased and restored funding for the NVEWS program.
    Mr. Lamborn. OK. Thank you. And at this point, I would like 
to yield to the Ranking Member from New Jersey.
    Mr. Holt. Thanks, Mr. Chairman. Dr. Price, in your opinion, 
does USGS do a good job mapping? And let me extend that and ask 
whether USGS has the best technology--has fully up-to-date 
technology, or whether we need more investment in that.
    Dr. Price. As far as the scientific capabilities of their 
geologic mappers, they are pretty much first rate. They have 
some very good people involved with their part of the program. 
There certainly is a huge amount of land that still needs to be 
adequately mapped. In my State, in Nevada, we estimate it to be 
about 80 percent of the land hasn't been mapped yet adequately. 
So there is a very large effort that is necessary.
    So as far as quality goes, they are just fine. As far as 
new technology goes, they indeed have some lacking. One of the 
newest technologies----
    Mr. Holt. May I interrupt you? Could you put LIDAR in 
perspective?
    Dr. Price. I was just about to mention LIDAR. That is one 
of the newest technologies that is really enhancing our ability 
to accurately locate faults. It leads into the earthquake 
hazard arena. It does a much better job of detailed topographic 
mapping. We can map flood plains a lot more easily with that 
technology. It has a huge amount of opportunities for new 
geologic mapping, as well as other kind of mapping. And it is 
also something that engaged the private sector more fully as 
well. So it addresses some of the MAPPS concerns as well.
    Mr. Holt. Thank you. Dr. Schiffries, do you think the 
effects of hydraulic fracturing is something that needs to be 
examined further?
    Dr. Schiffries. I think that greater research needs to be 
done in this area, and perhaps greater transparency in what is 
being used in some of these fluids.
    Mr. Holt. Thank you. And, Dr. Aster, last week the Arkansas 
Oil and Gas Commission unanimously voted to approve an 
emergency order to temporarily shut down wastewater injection 
operations associated with hydraulic fracturing. It came after 
Arkansas had already imposed a moratorium on permitting any new 
injection wells.
    Should USGS be playing a role in studying the recent 
earthquake swarm in Arkansas? If not USGS, who? Or do we know 
all we need to know there?
    Dr. Aster. There is a lot we don't know about induced 
seismicity, although we have known since the 1960s in fact that 
people can with surprising ease generate earthquakes with 
mechanisms like fluid injection that change the pressure and 
affect the forces on faults deep within the earth. There is a 
lot we don't know about the susceptibility of various areas to 
induced seismicity, and to some extent, how large such 
earthquakes might be. So this is very much an appropriate area 
to be studied, everywhere from the fundamental physics to using 
the extensive USGS records of background seismic activity 
before these activities occur to see if there are statistically 
significant increase in seismicity due to these sorts of 
activities.
    So, yes, this is a very appropriate area of study.
    Mr. Holt. For USGS. They are the appropriate agency to be 
looking at this?
    Dr. Aster. Indeed they are, along with their usual partners 
in academia and through their external grants programs. This is 
very much--in my opinion, it falls into the purview of the USGS 
as the principal Federal agency for studying earthquakes and 
related seismic phenomena.
    Mr. Holt. And is this something that--is there an urgency 
in studying this? I am trying to put this in perspective with 
respect to geothermal, to prospecting for gas or oil. How 
serious is it? How urgent is it that we understand this better?
    Dr. Aster. Indeed, this is a large and urgent issue, both 
for geothermal and for hydrocarbon extraction. As you are 
aware, there have been some very significant projects shut down 
in Europe when damaging earthquakes were generated from hot dry 
rock type--hard rock geothermal activities, and there was great 
concern recently in the geysers region of California about 
induced seismicity from geothermal exploration activities.
    So this is a very important area of research in the 
earthquake community.
    Mr. Lamborn. Thank you. I would like to thank the witnesses 
for their valuable testimony and their patience and for being 
here today. This has been a very helpful and informative 
hearing. I would like to thank Members and staff for their 
participation and preparation.
    Members of the Subcommittee may have additional questions 
for the witnesses that they would supply to you in writing, and 
we would ask that you respond to those in writing as well. The 
hearing record will be kept open for 10 days to receive any 
such responses from you.
    If there is no further business, then without objection the 
Subcommittee stands adjourned.
    [Whereupon, at 4:11 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
